<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------          
                              


                         TUESDAY, APRIL 9, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:57 p.m., in room 124, Dirksen 
Senate Office Building, Hon. John Boozman (chairman) presiding.
    Present: Senators Boozman, Murkowski, Collins, Rubio, 
Daines, Schatz, Leahy, Tester, Reed, Udall, Baldwin, and 
Murphy.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. ROBERT MCMAHON, ASSISTANT SECRETARY 
            OF DEFENSE FOR SUSTAINMENT


               opening statement of senator john boozman


    Senator Boozman. Good afternoon. The subcommittee will come 
to order.
    We meet today to discuss the President's fiscal year 2020 
budget request for military construction, family housing, and 
base realignment and closure for the Department of Defense. I 
would like to begin by recognizing today's panel. Today, we 
will hear from representatives of all the military services as 
well as the Office of the Secretary of Defense.
    For three of our witnesses, this will be their final 
appearance in front of our subcommittee before their 
retirements this summer, which I am sure you have mixed 
emotions about being in front of the subcommittee. Joining us 
are the Honorable Robert McMahon, Assistant Secretary of 
Defense for Sustainment. Lieutenant General Gwendolyn Bingham, 
Assistant Chief of Staff of the Army for Installation 
Management, who is retiring after 38 years of service. And we 
very much appreciate you.
    Vice Admiral Dixon R. Smith, Deputy Chief of Naval 
Operations for Fleet Readiness and Logistics, retiring after 37 
years of service. Again, thank you for your service.
    Major General Vincent Coglianese, Commander of the Marine 
Corps Installations Command and Assistant Deputy Commandant, 
Installations and Logistics, who is retiring after 36 years of 
service. And again, we appreciate all of you and all that you 
represent very, very much.
    Brigadier General John Allen, Air Force Deputy Chief of 
Staff for Logistics, Engineering, and Force Protection, and 
Director of Civil Engineers, who is not retiring, but I also 
want to thank you for your 27 years of service.
    The fiscal year 2020 base budget request of $11.2 billion 
reflects a 9 percent increase over the fiscal year 2019 enacted 
level of $10.3 billion. While it is great to see an increase in 
the MILCON request for the second consecutive year, reversing 
years of underfunding, while simultaneously building ready and 
resilient installations will remain a challenge.
    The increased complexity of facilities needed to support 
today's weapons systems and new platforms is driving complex 
designs, higher costs, and aggressive construction schedules.
    Additionally, efforts to support several multibillion 
dollar recapitalization initiatives culminate in large and 
complex projects taking up a greater share of the budget. We 
are all aware that this portfolio has been taking on increasing 
levels of risk for years, and affordability continues to 
decrease as cost of the construction projects continues to 
rise. This is evident in this year's request as the top 20 
percent of projects account for half of the budget.
    The fiscal year 2020 budget request begins to improve our 
infrastructure, but the total MILCON request is still less than 
3 percent of the total Department of Defense budget. Congress 
and departments must collaborate to find innovative solutions 
to deliver facility investments with constrained resources. 
This is an urgent need, given that MILCON not only supports new 
weapon platforms, but are interdependent on purpose-built 
infrastructure, but it also provides for hospitals, schools, 
and housing to improve the quality of life for our service 
members and their families.
    To that end, I am pleased that the Office of the Secretary 
of Defense and the services are developing and implementing 
efforts on infrastructure management and reform. I look forward 
to learning more about the services implementing these 
initiatives and hearing how they will improve existing 
processes. The fiscal year 2020 Overseas Contingency Operation 
European Deterrence Initiative request is $645 million, a 
decrease from the fiscal year 2019 enacted level of $921 
million.
    I would be remiss if I didn't note that the $9.2 billion 
emergency request to support hurricane reconstruction efforts 
and the national emergency at the southern border. The damage 
at Tyndall Air Force Base and Camp Lejeune is truly 
devastating, and I think we must rebuild in a smart, thoughtful 
manner as quickly as we responsibly can.
    I also believe that border security is an urgent need that 
should be a priority. Clearly, work remains to be done in order 
to achieve the level of border security that the American 
people are calling on Congress to deliver, and this will 
require a whole of government effort.
    I don't think I am exaggerating if I say the specific 
request in front of the subcommittee is unprecedented and will 
spark passionate debate among my colleagues. However, I remain 
hopeful that the subcommittee can work together in our 
traditional bipartisan fashion to develop a bill that supports 
the Department and our service members.
    Before we turn to our witnesses, I would like to recognize 
my colleague Senator Schatz for his opening remarks.


               opening statement of senator brian schatz


    Senator Schatz. Thank you very much, Mr. Chairman, and 
thank you to all of these great public servants on the panel.
    Reviewing the Defense Department's military construction 
request for fiscal year 2020 means that we are also 
reconsidering the projects that Congress funded for fiscal year 
2019. We funded those projects because the Department asked for 
them, because you told us that they were necessary. Now Acting 
Secretary Shanahan has directed the services to go back and 
take a second look to see if that is still true.
    No one has outlined the criteria DoD is going to use to 
decide what projects to delay or defund to pay for the wall. 
The Department needs to provide specifics on how it will decide 
which projects are now on the chopping block. And when we 
finally see the list of projects that DoD is willing to cut for 
the wall, we need to know how the Department decided because 
there is a concern that the White House may have promised to 
protect projects in certain States in exchange for votes by 
members of this body on the President's emergency declaration.
    So let us be clear about what will happen if this process 
remains obscured. If you decide a prior year project is worth 
cannibalizing to pay for the wall, you also just decided that 
it is less important than every other project in the Future 
Years Defense Program. It falls off for 10 years. That goes for 
service-specific projects as well as Defense-wide agency 
projects.
    Additionally, the Department is asking us to write a 
separate check for $3.6 billion to pay for what, I am not 
entirely sure. And it is not clear the Department has fleshed 
that out either. We have to assume it is to pay for fiscal year 
2020 projects that you are up here defending that may get cut 
next year, for next year's emergency declaration and raid for 
the border wall. I see no reason to provide that funding.
    There is also this idea that there will be--that we will 
backfill any project that DoD delays to pay for a wall that 
Congress has already said it won't do. We have to reject this 
for what it is, an undermining of our constitutional role as 
appropriators. This committee has a tradition of giving the 
Department flexibility to move money to meet urgent needs, but 
we will not weaken our oversight by giving you lump sum funding 
for some unknown purposes, whether it is for border wall 
construction, hurricane recovery, or housing. If you don't give 
us more information, we will be forced to put more restrictions 
around funds that we appropriate.
    Every day this goes on, we are seeing the erosion of our 
trust and confidence that has been part of this committee's 
work with the Department. We get that none of this is your 
call. You are responding to a policy directive, but you need to 
know that this whole process and the uncertainty around it has 
frayed our working relationship. We do need answers, and we 
expect you to carry the messages you are hearing back to your 
service chiefs and the Acting Secretary.
    Setting aside the border wall, the fiscal year 2020 request 
is largely a good news story. The base budget request 
recognizes that we badly need to invest in military 
infrastructure, and you have used less war funds to fund your 
total requirement. The request includes important improvements 
to training ranges, piers and wharfs, and airfields. We are 
also seeing increases across the Guard and Reserve, and I hope 
the Department can continue to build on this.
    And let me end by recognizing three of our witnesses who 
are making their last appearance: Lieutenant General Bingham, 
Vice Admiral Dixon Smith, and Major General Coglianese. I want 
to thank you for your decades of service. I want to thank you 
all for everything you do for our country. I want to especially 
recognize Dixon Smith, his wife, Kiki, their service in Hawaii 
and our friendship.
    Thank you, Mr. Chairman.
    Senator Boozman. Mr. McMahon, I now recognize you for your 
opening statement.


                summary statement of hon. robert mcmahon


    Mr. McMahon. Chairman Boozman, Ranking Member Schatz, 
distinguished members of the subcommittee, on behalf of myself 
and my service colleagues, thank you for the opportunity to 
present the President's fiscal year 2020 budget request for the 
Department's sustainment programs. My written statement has 
been submitted for the record.
    As the Assistant Secretary for Sustainment, I focus on 
supporting the National Defense Strategy through three 
strategic objectives. First, creating and sustaining resilient 
installations. Second, ensuring safe places for our members and 
their families to live, work, play, and pray. And third, 
enhancing material availability of Department of Defense 
weapons systems. Our fiscal year 2020 request continues the 
Department's efforts in achieving these objectives and 
rebuilding our military into a more capable, lethal, and ready 
joint force.
    Our installations are our power projection platforms. And 
investments in infrastructure, environment, and energy ensure 
they are ready to support the defense of the Nation. We are 
requesting $21 billion for the military construction and family 
housing appropriations to construct or acquire facilities 
needed to beddown new mission capabilities, restore and 
modernize enduring infrastructure, eliminate those that are 
excess or obsolete, and begin hurricane recovery.
    Aside from MILCON, we are requesting $10.4 billion for 
sustainment and almost $5 billion for restoration and 
modernization, a 7 percent and 80 percent increase over our 
2019 request, respectively. While this is a significant 
improvement, we continue to take risk in these areas. Because 
we must adapt to a variety of threats in increased installation 
resilience, we will continue to focus on robust infrastructure, 
sound land management, increased energy resilience, improving 
cybersecurity, and the effects of a changing climate.
    We are also committed to protecting the quality of life for 
our personnel and their families. Our primary focus here is 
ensuring access to safe, high quality, affordable family, and 
unaccompanied housing. To that end, our budget includes $1.3 
billion to support our worldwide non-privatized family housing 
inventory, which includes more than 34,000 Government-owned and 
7,100 leased units. This request also demonstrates our 
continuing commitment to modernized, unaccompanied personnel 
housing, with more than $674 million requested for construction 
and renovation projects supporting more than 3,900 trainees and 
permanent party personnel.
    With regard to housing privatization, it was the right 
thing to do, improving the quality of on-base housing and 
providing the necessary long-term investment our personnel 
deserve. That said, recent media coverage reveals deficiencies 
that we must address. The Department is committed to working 
with our housing privatization partners and you to provide the 
best housing possible.
    Last month, I testified on the potential support the 
Department of Defense may provide in the construction of a 
border barrier. This request includes $9.2 billion of emergency 
funding to restore resources that may be reallocated in fiscal 
year 2019 should the Acting Secretary of Defense choose to 
exercise 10 U.S.C. 2808 authority and for unspecified fiscal 
year 2020 military construction to build border barriers.
    Additionally, this amount includes funding to rebuild 
facilities damaged by Hurricane Florence and Michael. Our 2020 
budget also requests $3.6 billion for environmental programs, a 
$188 million increase over last year's request. This includes 
$254 million in the BRAC environmental account, focusing on 
restoration, compliance in adopting new technologies to reduce 
cost and accelerating cleanup.
    Finally, energy is an essential enabler of military 
capability. And to that end, we are requesting $150 million for 
the Energy Resilience and Conservation Investment Program to 
fund projects that improve resilience and security, save energy 
and water, reduce costs, and most importantly, contribute to 
our mission readiness.
    We appreciate Congress' and this subcommittee's continued 
support as we work together to provide the best support 
possible to our soldiers, sailors, airmen, and Marines, and 
their families. And I look forward to your questions.
    [The statement follows:]
               Prepared Statement of Hon. Robert McMahon
                              introduction
    Chairman Boozman, Ranking Member Schatz and distinguished members 
of the Subcommittee: Thank you for the opportunity to present the 
President's fiscal year 2020 budget request for the Department of 
Defense programs supporting Sustainment.
The New Sustainment Organization
    With my confirmation as the Assistant Secretary of Defense for 
Sustainment, we have consolidated the former Logistics and Materiel 
Readiness and the Energy, Installations & Environment portfolios into a 
more holistic organization focused on sustaining warfighter support. As 
the principal sustainment official within the senior management tier of 
DoD, my mission is to advise and assist the Undersecretary of Defense 
for Acquisition and Sustainment, the Deputy Secretary of Defense, and 
the Secretary of Defense in providing guidance to the Secretaries of 
the Military Departments with respect to sustainment support. I 
prescribe policies and procedures for facilities management, energy, 
environment, infrastructure, logistics, materiel readiness, and product 
support. In addition, I exercise authority, direction and control over 
the Office of Economic Adjustment and Director of the Defense Logistics 
Agency.
    Sustainment is big business. We support warfighter capabilities 
through over 585,000 facilities, located on more than 500 bases, posts, 
camps, stations, yards, and centers around the world, with a facility 
replacement cost exceeding $1 trillion, not including the value of the 
27 million acres of land that our installations occupy. Additionally, 
defense logistics alone represents a quarter of the Department's 
budget, while sustaining nearly $1 trillion in materiel assets, 
including 275 ships, 14,000 aircraft, and almost 500,000 combat and 
other ground vehicles. We manage approximately, 5,000,000 stock 
numbers, 100,000 suppliers, 90,000 requisitions per day and an 
inventory valued at nearly $100 billion. The Defense Logistics Agency 
has annual sales of $38 billion.
    As the head of this enterprise, my strategic objectives are to a) 
enhance materiel availability of DoD weapon systems; b) create and 
sustain resilient installations; and c) ensure safe places for our 
members and their families to live, work, play, and pray.
    The fiscal year 2020 budget request supports the National Defense 
Strategy's (NDS) three lines of effort: rebuilding readiness and 
lethality; strengthening alliances and partnerships; and improving 
performance and affordability through reform. Investments in 
infrastructure, environment, energy, logistics, materiel readiness, and 
weapons support are crucial for NDS implementation. Every mission the 
DoD Components undertake to defend this nation is supported by DoD 
installations, which are our power projection platforms.
   fiscal year 2020 budget request--military construction and family 
                                housing
    The President's fiscal year 2020 budget requests over $21 billion 
for the Military Construction (MilCon) and Family Housing 
appropriation, which includes $9.9 billion for the base budget MilCon 
requirements, $1.3 billion for family housing, $0.6 billion for 
Overseas Contingency Operations, and $9.2 billion for responding to 
emergencies. This represents a $9.8 billion increase from the fiscal 
year 2019 enacted level primarily due to the aforementioned emergency 
funding, which will be used to restore funding which may be reallocated 
in fiscal year 2019 to build border barriers should the Acting 
Secretary of Defense choose to exercise the 10 U.S.C. 2808 authority. 
This funding will also be used to rebuild facilities damaged by 
Hurricanes Florence and Michael, and for unspecified military 
construction to build border barriers.
    This budget request continues the Department's priorities to 
establish a foundation for rebuilding the U.S. military into a more 
capable, lethal, and ready Joint Force. This funding will be used to 
construct or acquire facilities needed to bed-down new mission 
capabilities, restore and modernize enduring infrastructure, eliminate 
those that are excess or obsolete, and begin implementing projects 
supporting hurricane recovery.
                         military construction
    We are requesting $9.9 billion in the base budget for military 
construction across the Services and Defense Agencies--an increase of 
approximately $1.1 billion from the fiscal year 2019 enacted base 
budget. This increase is largely due to a need to fund the balance of 
projects that Congress incrementally funded in fiscal year 2019; to 
support new capability/mission (e.g., F-35A and KC-46) bed down 
requirements, force structure growth, operations and training, 
maintenance and production, unaccompanied personnel housing, and 
replacing antiquated infrastructure at enduring installations in the 
United States and overseas.
    This request includes $2.6 billion for the Defense-Wide Components 
including $267 million for fuel infrastructure; $697 million for 
recapitalization of National Security Agency and National Geospatial 
Intelligence Agency facilities; $494 million to address new 
capabilities/mission, force structure growth, and infrastructure for 
Special Operations Forces; and for specific programs such as the NATO 
Security Investment Program and the Energy Resilience and Conservation 
Investment Program.
    In addition, the Defense-Wide request also contains $256 million 
for medical facility recapitalization including the third increment of 
$97 million of a $510 million project for the Walter Reed Medical 
Center Addition/Alteration; $50.0 million for the second increment (of 
a $381 million, five increment project) for a new hospital at Fort 
Leonard Wood, Missouri; and other smaller ambulatory care center/dental 
and support facilities. All the projects are crucial for our continued 
delivery of the quality healthcare that our service members and their 
families deserve.
                    overseas contingency operations
    The fiscal year 2020 OCO budget request includes $645 million in 
MilCon, a decrease of $277 million from the fiscal year 2019 enacted 
amount, to support critical global defense posture requirements focused 
primarily in European areas, including the ongoing European Deterrence 
Initiative (EDI). EDI enhances readiness in Europe to deter Russian 
aggression and provides our allies a clear indication of the United 
States' long-term commitment to Europe. This MilCon funding includes 
unspecified minor military construction and planning and design funds 
for airfield, facility, and force protection upgrades. The improvements 
continue our efforts to strengthen combat readiness and theater Joint 
Reception, Staging, Onward Movement, and Integration capabilities in 
the region.
                         dod emergency funding
    As noted earlier, the fiscal year 2020 budget request includes $9.2 
billion of emergency funding to restore resources that may be 
reallocated in fiscal year 2019 to build border barriers should the 
Acting Secretary of Defense choose to exercise the 10 U.S.C. 2808 
authority, to rebuild facilities damaged by Hurricanes Florence and 
Michael, and for unspecified military construction to build border 
barriers.
                    family and unaccompanied housing
    In return for the sacrifices they make in service to our nation, 
Service members and their families expect a safe and secure place to 
live, good schools for their children, access to good medical care, and 
a viable relocation process that respects their household goods. The 
Department is committed to protecting the quality of life for military 
personnel and their families by ensuring access to safe, high-quality, 
affordable Family and Unaccompanied Housing where they will want to 
live. The environment in which our Service members and their families 
live impacts their quality of life, their ability to do their job, and 
the Department's ability to recruit and retain. Ensuring a positive 
housing experience and quality of life is critical to support personnel 
readiness for new and current missions and strategic initiatives 
worldwide.
    Our fiscal year 2020 budget request includes $1.3 billion to 
support our worldwide family housing inventory, which includes more 
than 34,000 government-owned and 7,100 leased family housing units. 
This request contains $293 million for construction of new housing and 
about $1 billion for operation and maintenance of DoD's government-
owned and leased family housing units, oversight of privatized housing 
on our U.S. installations, and provisioning of housing support services 
to assist military members with housing issues such as resolving 
landlord issues or providing information on the local housing market. 
The requested funding demonstrates our commitment to provide safe, 
quality, affordable housing and housing support services to U.S. 
military personnel and their families.
    The Department's fiscal year 2020 budget request also demonstrates 
our continued commitment to modernizing Unaccompanied Personnel 
Housing, with more than $674 million requested for nine construction 
and renovation projects that will improve living conditions for more 
than 3,900 trainees and permanent party unaccompanied personnel. This 
includes $73 million for the second phase of a training barracks at 
Fort Sill, OK; $164 million for a bachelors enlisted quarters complex 
at Navy Base Guam; $110 million for a recruit barracks at Joint Base 
San Antonio, TX; and $134 million for a bachelor enlisted quarters 
project at Marine Corps Base Hawaii. Our modernization effort includes 
a focus on improving privacy and access to amenities that are important 
to our unaccompanied personnel.
    Now that the Department has privatized most of its CONUS-based 
housing, a primary role for the Office of the Secretary of Defense is 
to ensure these projects maintain quality housing where military 
families will enjoy living while sustaining the projects' long-term 
financial viability. To support this goal, the Department is requesting 
$3.5 million to help administer the Military Housing Privatization 
Initiative (MHPI) program. These funds are critical for us to monitor 
MHPI project financial health; respond to Office of the Management and 
Budget guidance related to oversight of Federal credit including annual 
credit subsidy re-estimates for government direct loans and loan 
guarantees; and conduct analyses of MHPI projects under financial 
stress that may require a restructure or modification (e.g., as a 
result of hurricane damage). Our oversight of the MHPI program includes 
privatized family and unaccompanied housing, as well as lodging the 
Army privatized at 40 U.S. installations over the last 13 years.
               military housing privatization initiative
    Under the Military Housing Privatization Initiative (MHPI) 
legislation established in 1996, the Military Departments have 
privatized 99 percent (more than 200,000 units) of installation family 
housing in the U.S., with more than 80 MHPI projects currently in place 
across approximately 150 installations.
    The Department is confident that housing privatization was the 
right thing to do. Privatization has dramatically improved the quality 
of on-base housing and has facilitated the long-term investment 
necessary to maintain high quality housing. The MHPI allowed the 
Military Departments to leverage private sector expertise and funding 
to improve the quality of installation housing in the United States 
much faster than DoD could have done through traditional military 
construction and ongoing operation and maintenance funding.
    Under the MHPI, Military Departments conveyed their existing 
government housing units to competitively selected privatization 
entities (i.e., the MHPI projects). MHPI projects operate under long-
term (50-year) ground leases and associated legal agreements with a 
Military Department, with one 25-year option period. In return, the 
MHPI projects assumed ownership of the houses and the responsibility 
for operation, maintenance, construction, and replacement of the 
housing during the lease term, in accordance with the authorities as 
defined in Title 10, United States Code.
    In light of the media reports and recent hearings on the poor 
conditions and service some military families experienced over the last 
several years, I am increasing the oversight my office provides to 
ensure the Military Departments fully and effectively exercise their 
responsibilities to ensure that privatized housing is managed in a 
manner protective of human health and the environment. This includes 
establishing new reporting requirements and programmatic reviews 
regarding Military Department monitoring of potential hazards in 
privatized housing, such as reporting on the number of child falls from 
windows in MHPI (or military-operated) housing.
    The Department and our housing privatization partners are committed 
to working together to increase our collective communication with 
military families to better ensure they have a positive experience 
living in privatized housing. This will start with the issuance of a 
Resident Bill of Rights. We will be working with Congress, the Military 
Departments, the privatized housing owners, and military families to 
articulate the responsibilities and expectations between renters and 
lessors. We will also be increasing our engagement with military 
families throughout their residency. Through increased engagement, we 
will better educate military families about their roles and 
responsibilities to help identify any issues with housing conditions, 
and the roles and responsibilities of the privatized partner and the 
installation housing teams. Our commitment to increase engagement also 
extends to Military and Veteran Support Organizations and advocacy 
groups such as the Military Family Advisory Network.
    In all cases, we commit to work with our housing privatization 
partners to ensure any and all resident concerns are addressed in a 
highly responsive, timely and professional manner, with emphasis on 
expediting resolution of any concerns involving potential health or 
safety issues. We want our military families to know that we truly care 
about their experience living in privatized housing and that we want to 
collectively do better in delivering safe, high quality, affordable 
housing where our military members and their families will want and 
choose to live.
    The Department of Defense understands that the family is important, 
and we honor the sacrifice that Service members and their families make 
to serve our nation. The Department recognizes we have a moral 
obligation to military families to provide safe and quality housing, 
and we take that obligation seriously. We are committed to the long-
term success of the MHPI projects and MHPI program, and will continue 
our oversight of the MHPI portfolio to ensure delivery of quality 
housing for Service members and their families over the life of the 
projects. Bottom line, this requires a twin focus: ensuring our 
residents have a positive experience living in privatized housing, and 
ensuring the long-term viability of the MHPI projects for future 
military families.
              facilities sustainment and recapitalization
    In order for the Department's facilities to support the goals of 
the National Defense Strategy, they must be well maintained and 
renovated periodically. Over the last 2 years, the Department has 
increased its funding to sustain and modernize existing facilities. 
While our Components must still take risks in maintaining facilities, 
this budget request continues to improve our overall funding and reduce 
risk in our most important infrastructure.
    Facility Sustainment funding, which includes the regularly 
scheduled maintenance and repair or replacement of facility components, 
is the foundation of the Department's investment to maintain the 
condition of our facilities. These periodic and predictable investments 
must be made across the service life of a facility to slow its 
deterioration and optimize its performance to support the safety, 
productivity, and quality of life of our personnel, while also reducing 
long-term recapitalization requirements. The Department's Operations 
and Maintenance (O&M) funding for Facility Sustainment in the fiscal 
year 2020 budget request is $10.4 billion, representing a 7 percent 
increase compared to our fiscal year 2019 budget request. This 
investment improves our collective sustainment rate to over 86 percent 
of our Facilities Sustainment Model requirement. This is still short of 
our 90 percent goal, but nonetheless represents significant movement in 
the right direction.
    In addition to Sustainment funding, Restoration and Modernization 
funding enables renovations and upgrades to ensure a facility can 
support assigned missions. Thanks to authority provided in the fiscal 
year 2017 National Defense Authorization Act, the DoD Components are 
increasing their pursuit of opportunities to more cost-effectively 
repurpose existing facilities to accommodate new missions. Our fiscal 
year 2020 budget request includes almost $5 billion in the Operations 
and Maintenance account for facilities restoration and modernization, 
an increase of almost 80 percent over our fiscal year 2019 request. As 
with our sustainment program, this also represents movement in the 
right direction to address the backlog of requirements in aging and 
obsolete facilities.
                   environmental and safety programs
    Installations are key platforms for our nation's defense. 
Therefore, we must make them resilient and a ``safe'' place for not 
only our service members, but their families living on our 
installations and our surrounding communities. The Department's 
environmental investments support these objectives through activities 
ranging from managing critical habitat and avoiding training 
restrictions to addressing drinking water health advisories and making 
the best use of limited cleanup dollars. The President's fiscal year 
2020 Budget requests $3.6 billion for environmental programs, which is 
an increase of $185 million compared to the fiscal year 2019 request.
    We are requesting $1.3 billion to continue cleanup efforts at the 
remaining Installation Restoration Program (IRP) sites and Military 
Munitions Response Program (MMRP) sites. The IRP is focused on cleanup 
of hazardous substances, pollutants, and contaminants, while the MMRP 
is focused on responding to unexploded ordnance and munition 
constituents at former military ranges. This includes $1.1 billion for 
``Environmental Restoration,'' which encompasses active installations 
and Formerly Used Defense Sites (FUDS--sites that DoD transferred to 
other Federal agencies, States, local governments, or private 
landowners before October 17, 1986). The remaining $254 million is for 
``BRAC Environmental.''

                                         Progress Towards Cleanup Goals
Goal: Achieve Response Complete at 90 percent and 95 percent of Active and BRAC IRP and MMRP sites, and FUDS IRP
                          sites, by fiscal year 2018 and fiscal year 2021, respectively
----------------------------------------------------------------------------------------------------------------
                                       Status as of the end of  Status as of the end of  Projected status at the
                                           fiscal year 2017         fiscal year 2018     end of fiscal year 2021
----------------------------------------------------------------------------------------------------------------
Army.................................                      91%                      91%                      94%
Navy.................................                      82%                      83%                      88%
Air Force............................                      83%                      86%                      92%
DLA..................................                      86%                      85%                      95%
FUDS.................................                      84%                      86%                      92%
    Total............................                      86%                      88%                      92%
----------------------------------------------------------------------------------------------------------------

    By the end of 2018, the Department, in cooperation with State 
agencies and the Environmental Protection Agency, completed cleanup 
activities at 88 percent of Active and BRAC IRP and MMRP sites, and 
FUDS IRP sites, and is now monitoring the results. During fiscal year 
2018 alone, the Department completed cleanup at over 469 sites. Of the 
roughly 39,500 restoration sites, more than 33,500 are now in 
monitoring status or have completed cleanup.
    Our focus remains on continuous improvement in the restoration 
program: minimizing overhead; adopting new technologies to reduce cost 
and accelerate cleanup; refining and standardizing our cost estimating; 
and improving our relationships with State regulators through increased 
dialogue. All of these initiatives help ensure that we make the best 
use of our available resources to complete cleanup.
    However, challenges remain that slow our progress. For example, 
unregulated or emerging chemicals of concern, such as perfluorooctane 
sulfonate (PFOS) and perfluorooctanoic acid (PFOA), are becoming a top 
priority and require the DoD to reprioritize or reopen previously made 
decisions which will cause delays in achieving our goals. Additionally, 
some sites have no feasible solution to clean up the contamination, and 
as a result, the Department is making significant investments in 
environmental technology to identify new potential remediation methods.
                        environmental technology
    A critical part of DoD's approach to meeting its environmental 
obligations and improving its performance is the continued pursuit of 
advances in science and technology. The Department has a thirty-year 
record of researching, developing, and transferring innovative 
environmental technologies from the laboratory to actual use in the 
field. Many of these technologies are also now widely used by other 
Federal agencies and industry, benefitting the nation as a whole.
    The overall fiscal year 2020 budget request for Environmental 
Technology is $178 million, centered on two key programs--the Strategic 
Environmental Research and Development Program (SERDP--focused on basic 
and applied research) and the Environmental Security Technology 
Certification Program (ESTCP--focused on validating more mature 
technologies to transition them to widespread use). The fiscal year 
2020 budget request includes $66 million for SERDP and $39 million for 
ESTCP for environmental technology demonstrations, with an additional 
$27 million requested specifically for energy technology 
demonstrations. These Defense-wide environmental technology programs 
coordinate closely with the Military Services to ensure research, 
demonstration, test and evaluation are focused on the Departments most 
pressing environmental needs.
    These programs have already achieved noticeable results and have 
the potential to significantly reduce long-term costs by implementing 
new ways of treating groundwater contamination, to increasing training 
land availability by developing more effective management strategies 
for installation managers, and to reduce the life-cycle costs of 
multiple weapons systems through development and demonstration of 
innovative coatings and materials. During the past 2 years, we have 
also launched an aggressive initiative to address management issues 
associated with the use of Aqueous Film Forming Foam (AFFF) including 
development of fluorine-free alternatives for AFFF, as well as 
development of more efficient and cost-effective sampling, analysis, 
and treatment options for AFFF-related chemicals including 
perfluorooctane sulfonate (PFOS), perfluorooctanoic acid (PFOA), and 
related per- and polyfluoroalkyl substances (PFAS). In the critical 
area of installation energy, we are focused on proving technologies and 
solutions that cost-effectively improve the energy security and 
resiliency of our installations, and that protect our energy assets and 
facilities from cyber-attacks.
             improving installation and climate resilience
    DoD must adapt current and future operations to address a variety 
of threats and increase the resilience of our installations. We 
recognize the effects of a changing climate are a national security 
issue with potential impacts to Department of Defense missions, 
operational plans, and installations. We have been and will continue to 
be proactive in developing comprehensive policy, guidance, and tools to 
mitigate these impacts, with a focus on robust infrastructure, sound 
land management policies, and increased energy resilience.
    From a resources perspective, DoD is incorporating climate 
resilience as a cross-cutting consideration for our planning and 
decisionmaking processes, and not as a separate program or specific set 
of actions. Specifically, the Department considers resilience in the 
installation planning and basing processes. This includes consideration 
of environmental vulnerabilities in installation master planning, 
management of natural resources, design and construction standards, 
utility systems and service, as well as emergency management 
operations. The Department has been proactive in developing policy, 
guidance, and tools to mitigate the impacts of a changing climate. 
These mitigation strategies focus on infrastructure and land 
management.
    From a policy perspective, the Department has published several 
issuances to ensure the Services and Joint Staff integrate climate 
scenarios into planning. DoD Directive 4715.21, Climate Change Adaption 
and Resilience, assigns responsibilities to components to incorporate 
climate considerations into planning for infrastructure and operations. 
DoD Instruction 4715.03, Natural Resources Conservation Program, 
requires consideration of climate impacts during development of 
Installations Natural Resources Management Plans. In 2017, the 
Department updated DoDI 6055.17, DoD Emergency Management Program, to 
ensure the consideration of an all hazards approach to manage risks, 
including weather and climate related impacts on military 
installations.
    Additionally, the Department regularly updates its building codes, 
known as Unified Facilities Criteria (UFCs), to reflect updated or more 
stringent industry and Federal standards. Over the past year, DoD has 
updated the Master Planning and High Performance and Sustainable 
Building Requirements UFCs to strengthen climate considerations. The 
Department has and will continue to develop tools for installation 
planners and engineers to assess climate impacts and develop mitigation 
strategies. Recent examples include The Planning Handbook on Climate 
Change Installation Adaptation and Resilience, produced by Naval 
Facilities Command (NAVFAC) in January 2017, and the Coastal Assessment 
Regional Scenarios Database (CARSWG) database with regionalized sea 
level scenarios for DoD sites worldwide.
         environmental conservation and compatible development
    The Department continues to manage its land, water, and airspace to 
ensure our military and civilian personnel have the access they need to 
conduct mission-essential activities. As training, testing, and 
operational requirements expand and new weapons systems are introduced, 
access and use of ranges becomes increasingly important. The fiscal 
year 2020 budget request for Conservation is $445 million. The 
Department will invest these funds to maximize our flexibility to use 
lands for military purposes and to address incompatible land uses 
beyond our fence lines.
    The Department's lands and waters are vital to readiness. However, 
they also support a diverse array of fish and wildlife species, 
including nearly 500 that are federally protected under the Endangered 
Species Act, and over 550 that are at risk of needing listing 
protection. Managing for healthy and resilient natural landscapes, such 
as reducing fire risks, avoiding wildlife conflicts, removing invasive 
species, and improving range and training areas, provides the 
conditions necessary for mission-essential activities.
    Regulatory protections related to threatened and endangered species 
and their habitats can pose significant mission challenges by 
restricting use of our existing ranges and training areas, or limiting 
our development of new infrastructure. In recent years, there has been 
a marked increase in the number of species being petitioned and 
evaluated for listing under the Endangered Species Act. To better 
address these issues, we have initiated a partnership with the 
Department of the Interior to target conservation efforts for species 
of primary concern to the Department.
    The three primary goals of this initiative are to facilitate 
species recovery and de-listing, establish local and regional 
partnerships to recover species or prevent new species from being 
listed, and to develop innovative tools and approaches that provide 
greater regulatory predictability.
    The Department's participation in broader conservation partnerships 
for listed species is beginning to see returns on those long term 
investments. This past year the Lesser Long-Nosed Bat, a species that 
resides on three Southwest installations, was considered recovered and 
removed from the list of threatened and endangered species. This 
success alleviated training restrictions related to Unmanned Aerial 
Vehicle (UAV) operations and use of pyrotechnics on 18,743 acres at 
Fort Huachuca, AZ. Four additional species are also currently being 
evaluated or have been proposed for either a status change from 
endangered to threatened, or removal from the list of threatened and 
endangered species.
    Building on this success, we will continue to work with our 
Federal, state and non-governmental partners to develop new and 
innovative regulatory approaches that streamline processes and provide 
greater mission flexibility. We will also be working to develop more 
comprehensive initiatives that better capitalize on both our on-
installation conservation programs and our off- installation 
conservation partnerships through the Readiness and Environmental 
Protection Integration Program.
       readiness and environmental protection integration program
    The Readiness and Environmental Protection Integration (REPI) 
program supports DoD's efforts to build a more lethal and resilient 
force. Investments protect training, testing, and operational assets of 
the Department, contributing to installation resilience and sustainment 
of existing and new mission capabilities. Through the REPI program, we 
engage in a long-term and cooperative strategy to ensure military 
mission sustainability by limiting incompatible development near our 
installations and ranges. Protecting these lands using the REPI program 
is a more cost-effective approach to sustain military readiness for the 
Department and the taxpayer than settling for suboptimal test and 
training alternatives or workarounds, such as replacing compromised 
assets with new range construction or relocating missions. This 
cooperative land protection also provides direct benefits to our 
partners and neighboring communities through the conservation of 
limited resources shared by the installation and its neighbors. REPI 
initiatives contribute to the longevity of working farms, forests, and 
ranchlands; increase recreational opportunities for nearby residents, 
active military families, and veterans; and increase the installation's 
military value. The REPI program invigorates public-private 
partnerships that strengthen military installation ties to local 
communities. These local alliances help to foster an increased level of 
communication and cooperation, which enables installation commanders to 
better accomplish their vital test, training, and operational missions. 
In the last 16 years, REPI partnerships have protected more than 
586,000 acres of land around 106 installations in 33 states. In 
addition to the tangible benefits of preserving DoD's existing 
training, testing, and operational assets, these efforts have resulted 
in significant contributions to the economic health and recreational 
opportunities for local communities.
    One example of a REPI initiative is working to sustain the F-35 
mission at Hill Air Force Base (AFB). Located in the fastest developing 
locale in the state of Utah, Hill AFB anticipates that without the REPI 
program, the arrival of the F-35 will face significant encroachment 
challenges in the next 5-10 years. Challenges such as public safety 
concerns, noise and nighttime lighting complaints, and water 
availability pose potential threats to the F-35 mission. Experts at 
Hill AFB say flight test patterns may have to be rerouted or aircraft 
launch hours may have to be restricted without encroachment mitigation.
    In addition to directly preserving and enhancing key mission 
capabilities through innovative partnerships, the REPI program has 
developed an approach that supports land use and habitat conservation 
practices beyond installation boundaries to ensure military 
installations do not become refuges of last resort for threatened, 
endangered, or at-risk species. Under this approach, DoD engages with 
other governmental and non-governmental partners who work with private 
landowners to develop voluntary initiatives and agreements that promote 
practices that help avoid or mitigate regulatory restrictions on 
training, testing, and operations on DoD lands. These efforts ease the 
on-installation species management burden and reduce the possibility of 
restricted activities.
    Within the Department's $445 million budget for conservation, $75 
million is directed to the REPI program. The REPI program is a cost-
effective tool to protect the nation's existing training, testing, and 
operational capabilities at a time of decreasing resources.
    To further REPI investments, DoD, along with the Departments of the 
Interior and Agriculture, continues to advance the Sentinel Landscapes 
Partnership to work with private and non-Federal landowners to conserve 
large landscapes where conservation, working lands, and national 
defense interests converge. Established in 2013, the Sentinel 
Landscapes Partnership further strengthens interagency coordination and 
provides taxpayers with the greatest leverage of their funds by 
aligning Federal programs to advance the mutually beneficial goals of 
each agency. From 2014 through 2018, seven Sentinel Landscapes have 
been designated. In 2018, DoD and the Military Services invested 
approximately $22 million in the seven Sentinel Landscapes, which will 
further leverage funds from Federal, state, local, and private 
partners. In 2018, the U.S. Department of Agriculture Natural Resources 
Conservation Service awarded $7 million in Regional Conservation 
Partnership Program funding to develop the North Carolina Sentinel 
Landscapes High Priority Protect Program. The investments made in 
Sentinel Landscapes help ensure readiness and protect operational 
flexibility.
addressing perfluorooctane sulfonate (pfos) and perfluorooctanoic acid 
                                 (pfoa)
    Ensuring the health and safety of our Service members, the families 
living on our installations, and the surrounding communities is one of 
our top priorities. This includes the investigation and cleanup of PFOS 
and PFOA in drinking water where previous Department of Defense 
activities are determined to be the source. DoD has committed 
substantial resources in the last 3 years and has taken significant 
actions to respond to concerns with PFOS and PFOA.
    One commercial product that contains PFOS and PFOA is Aqueous Film 
Forming Foam, or AFFF. Besides D)D, this highly effective firefighting 
foam has been used by airports, fire departments, and the oil and gas 
industry, among others. However, AFFF only accounted for approximately 
3-6 percent of PFOS production in 2000 and DoD is just one of many 
users.
    The Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA) provides a consistent approach across the Nation 
for cleanup. This includes prioritizing sites for cleanup using the 
CERCLA risk-based process--essentially worst first. The Defense 
Environmental Restoration Program statute provides authorities to DoD 
to perform and fund cleanup actions and requires they be carried out in 
accordance with CERCLA. The first step is to identify known or 
suspected releases. DoD has identified 401 active and Base Realignment 
and Closure installations with at least one area where there is a known 
or suspected release of PFOS or PFOA. The Military Departments then 
determined if there was exposure through drinking water. If so, DoD's 
priority is to quickly address unacceptable levels of PFOS/PFOA in 
drinking water. As of today, no one is drinking water above EPA's 
drinking water lifetime health advisory of 70ppt where DoD is the known 
source.
    With the exposure pathway broken, the Military Departments are 
prioritizing sites for further action using the longstanding CERCLA 
risk-based process--essentially worst first. These known or suspected 
PFOS and PFOA release areas are in various stages of assessment, 
investigation, and cleanup. As DoD moves through the CERCLA process, we 
will work in collaboration with regulatory agencies and communities, 
and share information in an open and transparent manner. We are 
committed to funding the remainder of assessments and investigations as 
we move into the later phases of CERCLA process.
    DoD has also committed significant funds in research and 
development to identify and test fluorine-free AFFF. As previously 
discussed, our SERDP and ESTCP programs launched numerous efforts and 
on-going projects from small scale to field demonstrations. At the 
conclusion of these projects, the Department will have invested $60 
million in PFAS-related research and development, with additional 
research and demonstration projects under consideration for funding 
beginning in fiscal year 2020.
    We have already taken steps to remove and replace AFFF containing 
PFOS from our supply system and to prevent new releases of AFFF. The 
Military Departments no longer use AFFF for maintenance, testing, and 
training activities. When AFFF is used to fight a fire, it is contained 
to prevent releases to ground water.
    Currently, no fluorine-free version of AFFF meets the military's 
stringent performance requirements to extinguish petroleum fires. We 
have solicited research projects to identify and test the performance 
of fluorine-free AFFF. These efforts support DoD's commitment to 
finding an AFFF alternative that meets critical mission requirements, 
while protecting human health and the environment, and will represent 
$10 million in research and development funding.
    In summary, DoD is taking immediate actions to reduce the risks 
from PFOS and PFOA. Our efforts reinforce DoD's commitment to meeting 
critical mission requirements while protecting human health and the 
environment. The Department recognizes that this is a national problem 
involving a wide array of industries and commercial applications, as 
well as many Federal and state agencies. Therefore, it needs a nation-
wide regulatory solution.
                 department of defense energy programs
    Energy is an essential enabler of military capability and the 
Department depends on energy- resilient forces and facilities to 
achieve its mission. In fiscal year 2018, the Department consumed over 
85 million barrels of fuel to power ships, aircraft, combat vehicles, 
and contingency bases at a cost of nearly $9.2 billion. At over 500 
worldwide military installations, the Department spent $3.4 billion in 
fiscal year 2018 on energy to power over 585,000 facilities and 160,000 
non-tactical vehicles.
    The National Defense Strategy outlines an operational environment 
where ``every domain is contested--air, land, sea, space, and 
cyberspace,'' and the ``homeland is no longer a sanctuary.'' Preparing 
for the battlefield of 2025 and sustaining installation and operational 
energy resilience necessitates the assured delivery of cyber-secure 
fuel and power in contested environments against near-peer competitors.
    To enable resilient, efficient, and cyber-secure energy for Joint 
forces, weapon systems and installations, the fiscal year 2020 
President's Budget includes approximately $4.2 billion in energy 
investments, including both operational energy (the energy required for 
training, moving, and sustaining military forces and weapons platforms 
for military operations) and installation energy (the energy used to 
power permanent installations and non-tactical fleet vehicles).
    In support of operational energy, the Department is requesting $3.5 
billion to upgrade and procure new equipment, improve propulsion, adapt 
plans, concepts, and plan wargames to account for increasing risks to 
logistics and sustainment, and enhance how the Department considers 
energy in developing new capabilities. As the Department responds to 
changing threats in Europe, the Indo-Pacific, and the Middle East, 
these initiatives are increasing capability and decreasing risks for 
warfighters deployed around the globe.
    In support of installation energy, the Department is requesting 
$698 million to for energy resilience and energy conservation 
initiatives, most of which are directed to existing buildings. This 
includes $548 million in the Military Component Operations and 
Maintenance accounts for sustainment and recapitalization projects, 
which generally involve retrofits to install improved lighting, high-
efficiency HVAC systems, double-pane windows, energy management control 
systems, and new roofs. The remainder ($150 million) is for the Energy 
Resilience and Conservation Investment Program (ERCIP), which is a 
MILCON account that funds projects to improve energy resilience and 
security, save energy and water, reduce energy costs, and most 
importantly, contribute to the mission readiness of our military 
installations.
    Our mission is to sustain warfighting readiness and lethality by 
providing all energy-related policy and governance for programs and 
activities that enable resilient, efficient, and cyber- secure energy 
for Joint forces, weapon systems and installations. To do so, the 
fiscal year 2020 President's Budget supports initiatives across four 
primary areas, outlined below.
                           energy resilience
    As defined in Section 101 of Title 10, energy resilience is the 
``ability to avoid, prepare for, minimize, adapt to, and recover from 
anticipated and unanticipated energy disruptions in order to ensure 
energy availability and reliability sufficient to provide for mission 
assurance and readiness, including mission essential operations related 
to readiness, and to execute or rapidly reestablish mission essential 
requirements.'' To this end, the Department has been engaged in the 
following programs that increase energy resilience for our weapons 
systems and installations.
    Energy Resilience and Conservation Investment Program (ERCIP).--
ERCIP is a key Department tool to enable more robust energy security. 
DoD is requesting $150 million for this program for fiscal year 2020, 
including $113 million for energy resilience projects and $37 million 
for energy conservation projects. The ERCIP portfolio has a combined 
Savings to Investment Ratio (SIR) of 1.63. In other words, every dollar 
we invest in ERCIP is returned to the Department with a discounted cost 
savings of $1.63 over the lifetime of the project, demonstrating that, 
in many cases, energy resilience does not have to come at a price 
premium. For example, at Beale Air Force Base, ERCIP funding will 
provide an electrical substation which will provide a secondary source 
of power from an alternate power provider to ensure the Global Hawk 
mission has the reliable power it needs. At Anniston Army Depot, the 
project will provide on-site generation and grid controls which assure 
critical production and maintenance of combat vehicles during extended 
grid outages. Both projects provide improved energy resilience to their 
critical missions.
    Micro-reactor Demonstration.--As directed in the fiscal year 2019 
National Defense Authorization Act, DoD and DoE are in the planning 
stages for a pilot program to demonstrate a commercially developed, 
Nuclear Regulatory Commission (NRC) licensed, micro-reactor to power 
critical loads at a permanent domestic military installation by 
December 2027. The demonstration will evaluate the energy resilience 
capability and the cost effectiveness of micro-reactor technology.
    Operational Energy Capability Improvement Fund (OECIF).--Overseen 
by the Under Secretary of Defense for Research & Engineering, OECIF 
supports operational energy research programs. The fiscal year 2020 
President's Budget requests $70 million to initiate new projects and 
sustain projects started in fiscal years 2017-2019. Ongoing initiatives 
include efforts to increase the energy performance of unmanned systems, 
enhance power and thermal management for high pulse power weapons, 
wirelessly transmitting energy in the far field, and 1 year analytical 
studies to identify operational energy science and technology gaps.
    Installation Energy Resilience Policy and Governance.--The Military 
Departments continue to implement energy resilience initiatives aligned 
with Department of Defense Instruction 4170.11, Installation Energy 
Management. This is the first policy the Department issued to define 
energy resilience; critical energy requirements; and operation, 
maintenance, and testing requirements for energy resilient systems.
    Standardized Mobile Electric Power Systems.--In August 2018, the 
Department established a DoD family of mobile electric power 
generation, distribution, storage, and management systems. This policy 
addresses the growing need for power at contingency bases with a 
standardized, interoperable, and maintainable family of equipment, 
while allowing mission-driven exceptions. The effort decreases the 
logistics burden--and risk--for deployed forces while enabling advanced 
equipment to reach the field at lower cost in less time.
    Installation Energy Plans.--The Department's ongoing energy 
efficiency efforts not only contribute to energy resilience by reducing 
critical loads, but have also lowered our base operating costs by $5.4 
billion since fiscal year 2005. In May 2018, the Department expanded 
its Installation Energy Plan (IEP) policy to require the integration of 
energy resilience and cybersecurity at all installations. The process 
of comprehensive energy planning will provide a holistic approach to 
identifying, evaluating, and mitigating energy risks to critical 
missions. The IEPs are slated for completion by the end of fiscal year 
2021.
    Training and Education.--Across the Force, there is a need for 
uniformed and civilian personnel who are prepared to develop and 
implement effective solutions for energy resilience and cybersecurity. 
For civilian and military installation energy managers, we finalized 
the Energy Manager Competency Model. Additionally, we foster 
collaboration among the Sustainment organization, the Department of 
Energy, and other agencies to communicate key priorities and coordinate 
inter-departmental events. For example, the annual Energy Exchange, 
Defense Logistics Agency's Worldwide Energy Conference, and the Federal 
Utility Partnership Working Group, provide relevant training for our 
workforce. In addition, for uniformed personnel, we are working to 
bolster energy-informed, risk-based decisions by expanding the Defense 
Logistic Agency's Joint Petroleum Seminar and Joint Petroleum Officers 
Course.
                              energy risk
    To prioritize resources, the Department is identifying, assessing, 
and integrating energy-related analyses and risks into Department 
decisionmaking, as follows:
    Energy Informed Wargames.--To better evaluate and mitigate the 
effects of energy disruptions on the mission, we are actively engaged 
in integrating energy risks into our wargames and exercises. In 2018, 
my office participated in three events sponsored by the Army, Defense 
Logistics Agency, and USTRANSCOM. With the integration of realistic 
constraints to logistics capacity and threats to our fuel storage and 
distribution, our efforts will improve Department decision- making in 
operation plans, concept and capability development, and program 
investments. Looking ahead, the Department anticipates executing a 
Joint energy wargame by the end of fiscal year 2019 that evaluates 
energy risks in the Indo-Pacific area of operations.
    Energy Resilience Exercises.--In alignment with U.S. Code and DoD 
instruction, we are performing full-scale and black-start energy 
disruption exercises of our energy resilience and backup power systems 
to evaluate risks to the readiness of our military installations. In 
fiscal years 2018 and 2019, the Department will have completed three 
tabletop exercise and five black-start readiness exercise tests at 
critical military installations. There is another planned black-start 
readiness exercise to be completed by the conclusion of fiscal year 
2020.
    Energy Resilience Tools and Analyses.--The Department continues to 
identify and develop critical energy requirements, models, and metrics 
for decisionmaking across the installation and operational energy 
portfolios. For installation energy, the DoD commissioned the 
Massachusetts Institute of Technology Lincoln Laboratory (MIT-LL) to 
address a congressional requirement to evaluate the costs, risks, and 
benefits associated with energy resilience and mission readiness 
against energy supply disruptions on military facilities and 
installations. Site-level assessments conducted across a number of 
military installations identified critical energy requirements and 
metrics for the purposes of identifying energy resilience projects. 
Also, the life-cycle cost analysis tool, which assesses tradeoffs 
between mission performance and costs, is now being assessed for 
enterprise-wide adoption across the Department.
                           energy performance
    The Department continues to leverage alternative financing 
authorities that ensure lower cost, resilient energy performance across 
DoD installations. Through mechanisms such as power purchase 
agreements, performance-based contracts, enhanced use leases, utility 
energy service contracts (UESCs), utilities privatization, and energy 
savings performance contracts (ESPCs), the Department has awarded over 
three billion dollars in alternative finance contracts to ensure energy 
performance, efficiency, and resilience on our military installations 
since 2011. In accordance with more recent congressional direction, the 
Department issued revised policy to integrate energy resilience and 
cybersecurity considerations into these alternative financing 
mechanisms.
    The Department takes full advantage of non-Federal financing for 
distributed energy projects to ensure the energy resilience of our 
installations. This approach minimizes DoD capital investment by using 
contracts that incentivize industry to fund infrastructure resilience 
improvements. When the business case supports it, the Department 
pursues distributed energy projects with microgrid-ready applications 
able to sustain continuous power in the event of a disruption. Both the 
Air Force at Hill Air Force Base and the Army at Fort Huachuca awarded 
ESPCs last year, which included implementation of on-site generation. 
In addition, the project at Fort Huachuca includes a microgrid, which 
will ensure the delivery of available, reliable, and resilient power 
while reducing life cycle costs through an ESPC with our industry 
partners.
    Further, my Energy team is conducting a Defense Energy Resilience 
Bank study, also known as the DERB, to review best practices from the 
commercial finance industry and lenders to implement and accelerate 
alternative finance for energy resilience project development. This 
multi-stakeholder collaboration with government and industry partners 
is critical to develop integrated and holistic alternative finance 
projects that ensure the Department's energy resilience objectives are 
met cost effectively.
                        cyber secure facilities
    Reflecting the role of our facilities as nodes for projecting and 
sustaining power, the Department is reducing the cyber risks to 
facility related control systems (FRCS) to ensure reliable power for 
critical missions. Similar to our approach to energy resilience, the 
department integrated cyber security into our energy policies and 
guidance of the course of the last year. For example our military 
installations are including cyber security considerations in the 
development of their installation energy plans, along with the pursuit 
of alternative finance. Specifically, FRCS considerations are now 
integral to utility privatization agreements, ESPCs, and UESCs.
    Further, to build a FRCS defense posture, the Department recently 
began developing cybersecurity plans to account for the capabilities 
and resources required to implement controls on its highest prioritized 
assets and systems. We will continue to work with the Department's 
Chief Information Officer and Principal Cyber Advisor toward solutions 
and resources ensuring FRCS are defensible, survivable, and resilient 
to operate and sustain critical functions in a cyber- contested 
environment. Additionally, in July 2018, the Deputy Secretary of 
Defense issued a memorandum, Enhancing Cybersecurity Risk Management 
for Control Systems (CS) Supporting DoD Owned Defense Critical 
Infrastructure, mandating the Components cyber secure these critical 
systems.
                   additional high interest programs
                            border security
    On April 4, 2018, the President directed the Secretary of Defense 
to support the Department of Homeland Security (DHS) in securing the 
southern border, including assistance to ``stop the flow of deadly 
drugs and other contraband, gang members and other criminals, and 
illegal aliens into the country.''
    On February 15, 2019, the President declared that a national 
emergency exists at the southern border of the United States that 
requires the use of the armed forces, making available certain 
emergency authorities, including Section 2808 of Title 10, U.S. Code.
    Section 2808 provides that, in the event of a national emergency 
declaration requiring use of armed forces, ``the Secretary of Defense, 
without regard to any other provision of law, may undertake military 
construction projects, and may authorize the Secretaries of the 
military departments to undertake military construction projects, not 
otherwise authorized by law that are necessary to support such use of 
the armed forces.''
    At this time, the Acting Secretary has not decided whether use of 
Section 2808 authorities is necessary. No military construction funds 
may be obligated under Section 2808 unless the Acting Secretary 
determines that military construction projects are necessary to support 
the use of the armed forces in addressing the national emergency for 
which the armed forces are required. To inform his decision, the Acting 
Secretary has requested from DHS a list of proposed border barrier 
construction projects, prioritized in order of effectiveness, that DHS 
considers to be most effective in improving the effectiveness and 
efficiency of DoD personnel supporting Customs and Border Protection 
(CBP) and securing the southern border. DHS provided its input to DoD 
on March 20, 2019.
    In support of the Acting Secretary's consideration of Section 2808, 
DoD is conducting a deliberate process to identify MILCON projects that 
could be used as funding sources, if necessary, for MILCON projects to 
support the use of the armed forces in connection with the national 
emergency. Should the Acting Secretary determine that use of Section 
2808 authorities is necessary, we will provide you the information on 
affected projects as soon as it is available.
    Additionally, the Defense Logistics Agency (DLA) is supporting 
Secretary of Defense-approved Requests for Assistance from the 
Department of Homeland Security via validated and Service- funded 
requisitions. As of February 28, 2019, DLA has provided over $7.7 
million worth of Class IV materials for the construction of 202 miles 
of fencing, in addition to over $3 million in subsistence, $56,000 in 
clothing and individual equipment, and $3.3 million of re-utilized 
material in support of operations. DLA remains well positioned to 
support additional requirements.
                      military construction reform
    Reform of the military construction process, although not 
represented as a budget request item, continues as an important effort 
of my office. Our goal is nothing less than to ensure warfighters are 
provided delivery of fully-mission-capable facilities within the 
timelines stated. We are looking for ways to reduce cost where 
possible, but perhaps more importantly, to improve communication 
between stakeholders and timeliness of completed facilities which fully 
meet user requirements over their expected service lives. We are 
continuing our proactive assessment of recent challenges in MilCon 
project delivery and program management to identify improvements in the 
MilCon process and implement reforms in a number of key areas, to 
include: improving identification of project requirements; enhancing 
collaboration between resource sponsors, end users, and construction 
agents to ensure projects meet mission requirements within budget 
constraints; selecting the best engineering and acquisition strategy to 
cost-effectively meet mission requirements; identifying risk mitigation 
measures before cost or schedule changes adversely impact the mission; 
and increasing awareness and accountability at all levels of management 
and performance as problems arise. The Department is also consulting 
with our industry partners to identify commercial best practices to 
lower costs, save time, measure performance differently, and improve 
project quality in support of the warfighter.
    guam and the commonwealth of the northern mariana islands (cnmi)
    As Acting Secretary Shanahan recently testified, China's 
increasingly provocative behavior in the Indo-Pacific, particularly in 
the South China Sea (SCS) should concern us all. Between 2013 and 2018, 
China increased its air and sea incursions into the SCS twelvefold. Our 
posture in the Indo-Pacific, specifically in Guam and the Commonwealth 
of the Northern Mariana Islands (CNMI) continues to be critical to 
countering China's influence.
    The Department continues to work on the relocation of approximately 
5,000 Marines from Okinawa to Guam. This initiative reduces the burden 
on our Japanese allies, while bolstering regional security in the 
Pacific. Its focus is on sustaining a forward-deployed responsive force 
that counters the reach of the People's Republic of China, the 
aggressions of North Korea, and other regional threats, while ensuring 
the capability to provide regional support at a moment's notice. Marine 
Corps forces realigning in the Pacific will establish an improved force 
composition, installation construction and modernization, and new 
strategic hubs, of which Guam will be the most significant. This 
venture between the U.S. and the Government of Japan will enhance 
interoperability and strengthen deterrence in the Indo-Pacific Region.
    The main cantonment area on Guam for the Marine Corps will be known 
as Marine Corps Base Blaz, to honor Marine Brigadier General Vicente 
``Ben'' Tomas Garrido Blaz, the highest ranking Chamorro to have served 
in the Marines, located at Finegayan in the Northwest. We are still in 
the land clearing phase of construction with approximately 85 percent 
of land clearing complete. The North Ramp of Andersen Air Force Base 
(AAFB) will be home to the USMC Air Combat Element housing the MV-22 
(Osprey), the H-1, and the CH-53 platforms. Hangar 1, which houses the 
Ospreys is completed and operational. Overall, the North Ramp 
construction is approximately 50 percent complete. AAFB Northfield, 
which is directly above the cantonment area, provides a live-fire 
training range for small arms and will provide a multi-purpose machine 
gun range. The south side of AAFB will provide urbanized training.
    Apra Harbor, located in the southwest of the island, will be a sea 
embarkation hub. It will have the capability to support all vessels 
that support USMC operations, black bottom vessels and high speed 
vessels. Apra Harbor will also provide forces with refueling piers and 
an ammunition wharf. Improvements at Apra are approximately 60 percent 
complete.
    The relocation is expected to achieve initial support capability in 
the mid-2020s, contingent on affordability and environmental analyses. 
The fiscal year 2020 budget request includes $277 million in MilCon and 
Planning & Design funding, including $91.2 million for the second 
increment of a multi-purpose machine gun range on Guam. Overall, the 
Government of Japan has committed $3.1 billion to fund this relocation 
and has already transferred $2.023 billion of its commitment to the 
U.S. Treasury. We are also asking your support to authorize the use of 
up to $13 millionof funds appropriated in 2014 to mitigate the effects 
of the military construction workforce on the healthcare system of 
Guam, as identified during the National Environmental Policy Act 
process related to the Marines' relocation to the Territory.
    Another initiative to increase our capabilities in the Indo-Pacific 
region is the Air Force's construction of facilities and infrastructure 
for Divert operations at Tinian International Airport. The Department 
signed a lease purchase agreement in November of last year and 
anticipates signing the final lease agreement this May. This represents 
a major milestone in one of the more challenging transactions we have 
worked. Divert operations would occur as training exercises to support 
readiness in the event other locations in the western Pacific are 
unavailable to support standard operations. For example, humanitarian 
assistance staging, including noncombatant evacuation operations, could 
also occur at the airport in the event of an emergency or disaster.The 
Divert initiative is estimated to cost $380 million. For fiscal year 
2020, the budget request includes $316 million to construct fuel tanks, 
a fuel pipeline, hydrant system, taxiway, and parking apron.
    As the westernmost U.S. territory in the Pacific, Guam and CNMI 
offers tremendous potential to posture the U.S. for the future, engage 
with our regional partners, and train to maintain core competencies. 
This is why we continue to pursue live-fire training ranges and 
training areas in the CNMI. These capabilities would fulfill INDOPACOM 
training shortfalls and be the only U.S. venue to conduct Marine Air 
Ground Task Force, Joint, and Combined-level live-fire amphibious 
assault and maneuver from the sea, with supporting naval gunfire and 
close air support. The environmental analysis for this is on-going. A 
key element of the analysis is a construction capacity study that will 
forecast the amount of construction activity CNMI can support.
    I would be remiss if I did not mention the devastation caused by 
Super Typhoon Yutu. On October, 24, 2018, the Category 5 hurricane-
equivalent storm made landfall on CNMI. Its 180 mph winds caused 
devastating destruction in the region and according to the National 
Oceanic and Atmospheric Administration, it was the second strongest 
system to hit U.S. soil in recorded history. However, despite the 
catastrophic damage from the typhoon, the CNMI has chosen to continue 
moving the Air Force Divert initiative forward, demonstrating the 
strength of our relationship.
Workforce Issues in Guam and Commonwealth of Northern Mariana Islands
    Stable economies in Guam and the CNMI, underpinned by a sustained 
labor pool, are critical to the Department's ability to implement the 
National Defense Strategy. Reliable access to a sustained labor pool in 
these forward-most territories is a national security issue that must 
be addressed if we hope to mitigate expanding Chinese influence and 
achieve our national security objectives in the region.
    We thank Congress for the relief provided in the Northern Marianas 
Island U.S. Workforce Act of 2018 passed last July. Extending the 
transition period for the full application of Federal immigration laws 
by 10 years (to December 31, 2029), and Guam and CNMI's exemption from 
the H-2B nationwide cap, will buy Guam and the CNMI time to work toward 
an interagency endorsed, long-term solution for ensuring sustained 
access to a viable labor pool Without long- term access to a foreign 
labor pool, the economies of these isolated U.S. territories will 
suffer and the cost of ongoing defense projects could skyrocket beyond 
their current estimates.
   military aviation and installation assurance siting clearinghouse
    The Military Aviation and Installation Assurance Siting 
Clearinghouse continues to protect the Department of Defense's ability 
to train, test, and operate as the nation expands its renewable and 
other commercial energy development and power transmission. The 
Department appreciates the statutory changes made by Congress in the 
fiscal year 2018 National Defense Authorization Act to codify the 
Clearinghouse role in DoD's Title 10 responsibilities, and is actively 
implementing the new requirements to better protect DoD missions. As an 
example, the Clearinghouse now notifies state Governors and solicits 
their input on energy projects where DoD has made an initial 
determination that a project will have an adverse impact to a mission. 
This increase in visibility helps protect DoD missions by identifying 
any state concerns with an energy project at an early point in the 
review process, as well as by identifying any state procedures that may 
assist DoD in finding a compatible siting solution.
    As a result of congressional direction and our own efforts, we are 
effectively evaluating the mission impact of commercial energy projects 
and implementing affordable and feasible mitigation solutions to 
protect DoD missions. In CY 2018, the Department reviewed over 5,000 
applications for energy projects through the FAA's Obstruction 
Evaluation Process, which continues our historical increase of 
approximately 20 percent per year. Of these 5,000 projects, 795 were 
wind development projects. Commercial wind development typically poses 
the greatest compatibility challenge to DoD due to the height and the 
physical obstruction that wind turbines can pose in low level flight 
routes, and adverse impacts to radar systems. DoD has resolved concerns 
with numerous energy projects though collaboration between the 
Clearinghouse, the Military Departments, local communities, states, and 
energy developers, thereby maintaining the Department's ability to 
train, test, and operate while enabling development of alternative 
energy resources.
Protecting and Enhancing our Training and Test Range Infrastructure
    The Clearinghouse is also leading the Department's efforts to 
develop a strategic plan for training range investments. In order to 
ensure that our testing and training range infrastructure is sufficient 
to support the National Defense Strategy, we are assessing our ranges' 
ability to support training for peer and near-peer adversaries. This 
assessment will result in a strategic plan for range investment to 
address identified gaps, improving combat credibility by offering 
opportunities for more realistic maneuver, attack, and opposing force 
engagement. The strategic plan will be completed in fiscal year 2020 
and will complement a parallel assessment of test ranges by the Test 
Resource Management Center.
                accelerating materiel readiness recovery
    Accelerating materiel readiness recovery is one of my near-term 
imperatives in alignment with the National Defense Strategy to increase 
lethality. Overall sustainment readiness is a foundational component of 
military strategy and pacing aspect of producing uninterrupted U.S. 
military capability. There is no one-size-fits-all approach--no silver 
bullet solution to the challenge before us today.
    Effective and efficient public and private industrial capabilities 
& capacity is the end state we seek as the Department's accountable 
agent for enterprise level sustainment outcomes. Our strategy for 
accomplishing this follows three lines of effort; accelerating materiel 
availability improvement, strengthening the viability of the organic 
industrial base, and operationalizing sustainment reforms. Maintenance, 
at both the field and depot levels, is foundational to our ability to 
rebuild readiness, as our National Defense Strategy directs us to do. 
My team is laser- focused on getting Mission Capable (MC) and 
Operational Availability (Ao) rates where they should be--challenging 
the status quo, reversing negative trends, and driving an aggressive 
reform agenda based on improved data-driven decisionmaking and 
leveraging best commercial practices. This is no small task given a $78 
billion annual spend for maintenance activities alone, and a workforce 
of over 606 thousand DoD personnel.
    You are undoubtedly aware of the 80 percent Mission Capable memo 
that was signed this past September for F-16, F/A-18, F-22, and F-35 
critical aviation assets. Our intent is to apply that same level of 
attention and visibility across all of our fleets--air, ground, and 
sea. So let me focus on what we are doing at the enterprise level to 
drive enduring change and improvement. Foremost, we are accelerating 
Materiel Availability improvements across our fielded fleets. I've 
charged my team with setting performance targets and measuring progress 
across the entire enterprise. I now can access and leverage over 1.5 
billion maintenance and supply transactions going back to 2005; a 
virtual goldmine in my estimation. We are refining our capabilities to 
understand the specific causes of availability loss and/or cost drivers 
at the enterprise level and synthesizing that information to inform 
decision makers about cost and availability relationships for every 
weapon system.
    We are also improving the viability of our organic industrial base 
capabilities. While our metrics initially focused primarily on mission 
and field-level outcomes, our next priority is depot performance and 
its contribution to overall supply chain effectiveness. We are working 
in concert with the Deputy Chief Management Officer's Cost Management 
team to map baseline costs of material and maintenance operations and 
to improve enterprise supply demand visibility and decisionmaking. We 
are also exploring and applying opportunities for broader application 
of commercial best practices within our public depots and repair 
activities.
                  product support for weapons systems
    Sustainment supports Department decision makers with comprehensive, 
timely, relevant and actionable assessments for weapon system 
development and acquisition. More specifically, we provide the DoD 
enterprise with policy, processes, guidance and tools that drive 
effective product support planning and execution at best value; and 
lead the cultural transformation necessary to deliver optimal life 
cycle product support.
    As part of these efforts, we are pushing initiatives to address 
Operating & Support (O&S) Cost projections early in the program life-
cycle that do not fully capture the cost to achieve the readiness 
levels our warfighters need. Requiring Sustainment Risk and O&S Cost 
Risk analysis significantly earlier than is currently the norm, by the 
Analysis of Alternatives (AoA) Phase, will enable Affordable Readiness 
of critical sustainment cost drivers (manpower, spares, consumables, 
and fuel efficiency). In addition to establishing and filling the 
supply chain, it also means establishing essential and early repair 
capability of depot level reparable and line replaceable units (DLR and 
LRU) by the scheduled Materiel Support Date--well-prior to initial 
operating capability (IOC) plus 4 years. We must balance near-term 
production cost with the long-range readiness of deployed fleets and 
fielded systems--that in reality coexist in the POM process. We also 
continue to improve policy and governance of the ``middle tier 
acquisition authority'' granted to the Department by Congress in order 
to accelerate the delivery of emerging capabilities into the hands of 
the warfighter. This authority provides streamlined pathways for middle 
tier acquisition technologies that can be prototyped within two to 5 
years, or be put into production within 6 months and completely fielded 
within 5 years.
    My Product Support team is especially focused on improving aircraft 
availability and reducing sustainment cost for the F-35 program. We are 
working with our allies and partners to develop sustainment 
capabilities where appropriate; supporting numerous ongoing cooperation 
efforts, including information exchanges and engagements to facilitate 
interoperability and enhance relationships; providing logistical 
expertise to develop partner logistics capacity; and supporting 
Geographic Combatant Commands in developing their country assessments, 
their Security Cooperation Programs, and their Foreign Military Sales 
packages.
                  logistics support to the warfighter
    The core competencies of Supply, Transportation, Equipment 
Management, Contingency Support, and Logistics Policy and Compliance 
were integrated under the Deputy Assistant Secretary of Defense for 
Logistics as part of forming the new Sustainment organization. The 
Defense Logistics Agency (DLA) also performs a critical logistics role 
as the nation's combat logistics support agency. DLA manages the global 
supply chain--from raw materials to end user to disposition--for the 
Army, Navy, Air Force, Marine Corps, Coast Guard, 10 combatant 
commands, other Federal agencies, and partner and allied nations.
    We secure our supply chains, institutionalize Operational Contract 
Support, and implement policies and strategies to mitigate threats from 
vendors in overseas locations. The Department seeks ways to strengthen 
our supply chains to support critical capabilities. Logistics personnel 
work closely with the Acquisition community to prevent procurement of 
counterfeit, defective, and malicious material. Efforts to encourage 
the development of supply chain standards is paying off as the 
Government Accountability Office (GAO) removed Supply Chain Management 
from its 2019 High Risk Report. Additionally, DLA supply chains drive 
over $35 billion in goods and services annually, providing 86 percent 
of the Military Services' spare parts, and nearly 100 percent of fuel. 
By staying synchronized with the Services' plans, DLA will take the 
required steps to proactively acquire and position material for 
aviation systems, land systems, and maritime systems, as well as 
industrial hardware, clothing and textiles, construction and equipment, 
medical, subsistence, and fuel and energy to ensure the readiness of 
our military forces.
    Since 2007 the Department has consistently worked to establish 
Operational Contract Support (OCS) as an enduring capability to support 
current and future operations. In August 2018, the Department began 
implementing 15 critical actions endorsed by the Joint Requirements 
Oversight Council (JROC) to fully integrate OCS across the Department, 
to strengthen the ability to perform OCS tasks, and ensure OCS supports 
all phases and ranges of joint military operations. Within OCS, Vendor 
Threat Mitigation (VTM) is critical. VTM is the capability to identify, 
assess, and mitigate risks posed by vendors supporting DoD operations 
outside the United States to ensure we do not do business with those 
entities that support our adversaries. Efforts are underway to mitigate 
risk to operational effectiveness and institutionalize OCS solutions by 
the end of 2022.
    We also understand the need to build logistics-related alliances 
within and outside our Federal Government structure and have taken 
action to build ties with other Agencies, industry leading companies, 
and allies to improve operations. One partnership success example is 
the General Service Administration (GSA) acquiring more mission support 
vehicles for conversion from an expensive DoD-owned to a DoD-leased 
fleet. This action reduced DoD vehicle sustainment cost over the past 5 
years by $217 million (15.7 percent). Additionally, DLA provides some 
level of materiel or service support to about 40 Federal agencies, 50 
states, 300 localities, and 115 international partners. DLA has the 
capacity to augment Federal contingency responses domestically and 
internationally. Hurricane-season demand topped $1.2 billion in support 
in 2017 and $105 million in 2018.
    Another important effort is the Logistic Reform Team, with a focus 
on identifying common sets of metrics and tools to measure and monitor 
our contribution to warfighting capability in terms of availability of 
weapon systems and cost per day of availability. Continued support of 
ongoing efforts to reform logistics processes not only increases weapon 
system readiness, but also drives down sustainment costs. The Team is 
evaluating sources of sustainment and commodity procurement processes, 
innovating our logistics processes to outpace our adversaries, and 
increasing transparency and governance across the enterprise.
    Readiness for the warfighter is also improved through DLA's organic 
industrial base program, where appropriated funds are used to enable 
industry a means to meet known surge requirements within our long term 
contracts when they don't have business case to do so otherwise.
    Reaching beyond sustainment organizations, we are partnering with 
the personnel community to improve the military personnel relocation 
experience by modifying the household goods relocation process.
    In support of audit readiness, we are taking actions to improve 
accountability of mission critical assets and to achieve a clean audit 
in the Department. We are reviewing notices of findings and 
recommendations received from independent public accounting firms and 
performing assessments of potential valuation methodologies for General 
Equipment, including weapon systems, for consideration as the 
Department-wide approach for properly valuing them. This will improve 
the integrity of financial data, which positions the Department to 
operate more efficiently and apply costs savings toward improving 
lethality. Additionally, we are working with the audit community and 
USTRANSCOM on the implementation of an enterprise-level transportation 
management system that will be a significant building block towards 
auditability.
                            f-35 enterprise
    The Sustainment organization touches the F-35 enterprises across 
multiple domains. F-35 sustainment continues to be a major focus area 
of the Department, as we work to increase readiness to meet the 80 
percent Mission Capable rate goal set as well as reduce F-35 
sustainment cost to align with the Service-budget-informed 
affordability constraints. As part of the strategy to meet these goals 
within the fiscal year 2019-2024 timeframe, the Department named U.S. 
Transportation Command (USTRANSCOM) and the Defense Logistics Agency 
(DLA) as the Global Transportation and Distribution Provider, as well 
as the Product Support Provider for F-35 North American Warehousing. In 
this capacity, they will provide wholesale and retail warehousing 
infrastructure and management supporting Air Logistics Complexes and 
Fleet Readiness Centers, along with management of designated commercial 
warehouses within the North American Region. Additionally, DLA and the 
Services have developed organic supply chain initiatives to improve 
readiness and lower total lifecycle costs. Further, we issued an 
updated F-35 Life Cycle Sustainment Plan fiscal year 2019 that 
identified eight success elements necessary for the Department to 
improve readiness and cost to meet warfighter needs.
    In fiscal year 2018, the Department accomplished a major 
acquisition milestones across the F-35 sustainment enterprise. Our 
teams improved air vehicle availability by 3 percent through our 
reliability/maintainability progress, delivered Block 3F Air System, 
completed Phase 2 Global Supply Solution Capability and Capacity (for 
fiscal years 2020-2022), reduced DoD ownership costs from fiscal year 
17 actuals, and planned for the Autonomic Logistics Information System 
re-architecture.
     state and community engagement--office of economic adjustment
    The request for the Office of Economic Adjustment ensures it may 
continue to support its many engagements with states and communities 
who are key partners to help the Department meet our mission. Specific 
program lines supported by this request include: compatible use 
engagements to lessen the impairments on our local missions brought 
about by civilian development and activity, including energy project 
siting; industry efforts that promote installation resilience through 
improved understanding of local and regional supply chains' 
susceptibility to funding fluctuations and cyber attacks; mission 
growth efforts to plan and deliver the necessary public services and 
infrastructure to support our forces; and, in a few rare circumstances, 
operational support to sustain Local Redevelopment Authorities as they 
await the disposal of property previously excessed through base closure 
actions. These funds will also permit the necessary oversight and 
execution of more than $700 million in obligated projects to improve 
public schools on our military installations that support the education 
of 11,000 military dependents annually; nearly $300 million in 
transportation improvements to improve access to many of our premier 
medical facilities for wounded warriors, their families, and our 
medical personnel; and, close to $180 million in outside the fence 
investments on Guam for water and waste water systems to support our 
Indo Pacific efforts. These projects are critical to support quality of 
life issues for our service members and their families.
                               conclusion
    Thank you for the opportunity to present the President's fiscal 
year 2020 budget request for DoD programs supporting sustainment. We 
appreciate Congress' continued support for our enterprise and look 
forward to working with you as you consider the budget request.

    Senator Boozman. Lieutenant General Bingham.
STATEMENT OF LIEUTENANT GENERAL GWENDOLYN BINGHAM, 
            UNITED STATES ARMY, ASSISTANT CHIEF OF 
            STAFF FOR INSTALLATION MANAGEMENT
    General Bingham. Thank you, and good afternoon, Chairman 
Boozman, Ranking Member Schatz, and the distinguished members 
of this committee. On behalf of over 1 million soldiers and 2.2 
million family members serving on installations around the 
globe, we are grateful for your timely passage of the fiscal 
year 2019 authorization and appropriations bills and for your 
continued support.
    Thank you, too, for the opportunity to discuss the 
importance of installations to Army readiness. Soldier and 
family housing and quality of life programs are an investment 
in the Army's most valuable asset, our people. To that end, we 
remain deeply troubled by the media reports and firsthand 
accounts from our soldiers and families of poor environmental 
health and safety conditions, as well as poor customer service 
in Army privatized housing.
    The Army and CEOs of our privatized housing companies have 
heard loud and clear that we must do a better job for our 
soldiers and their families. Soldiers and families who choose 
to reside on our installations have an enduring right to safe 
and healthy homes and barracks.
    The Army completed a 100 percent review of our total 
housing inventory, inclusive of Government-owned housing, 
privatized housing, and unaccompanied soldier barracks. We will 
use the information obtained from these visits and inspections 
and subsequent ones to continually address all life, health, 
and safety deficiencies and to improve existing processes and 
controls for housing oversight.
    We are enhancing training for our commanders, improving 
work order tracking processes, conducting quarterly town halls, 
and implementing accountability in the entire system. This 
accountability is an enduring mandate and mission. We owe this 
to our soldiers and their families.
    Army installations generate, project, and sustain every 
aspect of combat power. Our military construction budget 
request for $2.3 billion is aligned with the Secretary of the 
Army's priorities of readiness, modernization, and reform, with 
an enduring commitment to caring for our soldiers, civilians, 
and their families.
    America's Army stands ready to deploy, fight, and win our 
Nation's wars. With your continued support in providing 
predictable, adequate, sustained, and timely funding, our 
installations will remain ready, secure, and resilient, 
enabling mission readiness and quality of life for soldiers, 
civilians, and families.
    Again, thank you for this opportunity to appear before you 
today. I look forward to your questions.
    [The statement follows:]
         Prepared Statement of Lieutenant General Gwen Bingham
                              introduction
    Chairman Boozman, Ranking Member Schatz, and Members of the 
Subcommittee: Thank you for your continued support to our Soldiers, 
Civilians and their Families who serve this nation. The Army is 
grateful for the diligent work of this Committee and Congress on timely 
passage of the fiscal year 2019 Authorization Act and Defense and 
Military Construction (MILCON) appropriations bills. Your support 
provides greater flexibility to address mission critical infrastructure 
requirements that affect warfighting readiness.
    Army Installations generate, project, and sustain every aspect of 
combat power.
    Our facilities and infrastructure support one million Soldiers and 
2.2 million Family members serving on installations worldwide. In this 
fiscal year 2020 Budget, the Army is requesting $2.3 billion in 
Military Construction appropriations, a 13 percent ($264 million) 
increase over our fiscal year 2019 request. This budget will improve 
installation readiness, strategic power projection, and Soldier and 
Family readiness.
    Predictable, adequate, sustained and timely funding for 
installations enables all aspects of warfighting readiness--our top 
priority. Installations support the National Defense Strategy by 
generating and projecting ready forces from locations around the globe. 
Army installations, National Guard Readiness Centers, and Army Reserve 
Centers must be ready, secure, and resilient to enable the Army to 
train, fight, and win our nation's wars. We are focusing our efforts 
and resources on the priorities of Readiness, Modernization, and 
Reform, with an enduring commitment to care for our Soldiers, 
Civilians, and their Families.
    As a result of deliberate investment in places where our Soldiers 
and Families live, we have made significant improvements in our 
barracks and government-owned housing. With the fiscal year 2020 budget 
request, our cumulative investments since fiscal year 2017 will have 
improved 21 thousand barracks spaces and increased the proportion rated 
as good and adequate to 87 percent. The fiscal year 2020 request will 
also allow us to achieve a 90 percent good or adequate quality level 
for all Army-owned Family housing. Specific projects are listed later 
in this statement.
    The President's fiscal year 2020 budget request includes increased 
investment levels for Facility Sustainment Restoration and 
Modernization (FSRM). Increased funding will allow us to address some 
of the maintenance backlog; conduct more deliberate preventive 
maintenance activities and recap our most critical need facilities. 
Working with all Army Commands, we have made great strides over the 
past year to identify those facilities that directly contribute to the 
Army's highest priority operational missions. We will allocate the 
funds you provide to us, now and in the future, on facilities that 
support power projection, mobilization, and warfighter mission needs 
such as barracks, airfields, ranges, and maintenance facilities to 
achieve installation readiness.
                      soldier and family readiness
    Soldier and Family Housing and Quality of Life programs are an 
investment in the Army's most valuable asset--our people. We are deeply 
troubled by the reports in the media and from our Soldiers and Families 
of poor conditions and poor customer service associated with privatized 
housing. We have prioritized and implemented changes in processes and 
procedures across the installation management enterprise to address 
known issues, and our assessments continue. The Army remains committed 
to improving infrastructure and services that enable Soldier readiness 
and support Soldier and Family resilience, thus allowing Soldiers to 
focus on their mission.
    The Army Family Housing budget allows us to provide homes and 
related housing services to Soldiers and their Families living around 
the world. For fiscal year 2020, the Army requests $141 million for 
Family housing construction. This will fund the fourth and final 
increment of $83 million for new housing at Camp Humphreys, South 
Korea, which meets Commander, U.S. Forces Korea requirements for on-
post housing. The request also improves poor and failing housing units 
in Baumholder, Germany, for $30million, and replaces failing housing at 
Tobyhanna Army Depot, Pennsylvania, for $19 million.
    We are requesting $358 million to sustain all Family Housing 
operations; cover utility costs; ensure proper maintenance and repair 
of government Family Housing units; lease properties where required; 
and provide privatized housing oversight. We are committed to providing 
our Soldiers and Families the best living conditions possible, 
commensurate with their service to our nation.
    We are also investing in our unaccompanied Soldiers' quality of 
life by constructing a $32 million permanent party barracks at Fort 
Hood, Texas. To address deficits at our Initial Military Training 
locations, we are requesting funds for Advanced Individual Training 
(AIT) barracks complexes at Fort Sill, Oklahoma, and Joint Base 
Langley-Eustis, Virginia for $73 million and $55 million, respectively, 
and a reception barracks complex at Fort Jackson, South Carolina for 
$54 million.
                       strategic power projection
    The Army's request for MILCON provides secure and sustainable 
facilities to meet the Army's emergent needs in three critical subsets 
of installation readiness: Power Projection, Mobilization, and 
Warfighter Lethality. For fiscal year 2020, we apply $1.8 billion of 
our budget request to Strategic Power Projection; $1.4 billion for the 
Regular Army; $211 million for the Army National Guard (ARNG); $61 
million for Army Reserve (USAR); and $66 million for the Army portion 
of the Base Closure Account.
    The $1.4 billion Regular Army MILCON request will allow us to move 
forward with critical projects that enhance the Army's ability to 
compete against our Nation's adversaries. fiscal year 2020 projects 
include a Cyber Instructional Facility ($107 million) at Fort Gordon, 
Georgia; an Aircraft Maintenance Hangar ($62 million) at Hunter Army 
Airfield, Georgia; and a Powertrain Facility Maintenance Shop ($86 
million) at Corpus Christi Army Depot.
    Our $211 million ARNG budget request is focused on recapitalizing 
readiness centers--the heart and soul of the National Guard--as well as 
ranges to allow the Guard to be ready to perform Federal missions. 
Several of these projects will consolidate units and functions into a 
single facility allowing the Guard to close multiple older facilities.
    The $61 million fiscal year 2020 budget request for the USAR 
replaces our most dilapidated and failing facilities. An additional $9 
million will support critical needs through the Unspecified Minor 
Military Construction account.
    We appreciate the funding Congress provided the Army in recent 
years to meet the most pressing needs on our installations. The fiscal 
year 2020 $5.9 billion FSRM budget request sustains this trend and gets 
us closer to meeting our full sustainment requirements. The $3.5 
billion sustainment portion of the request represents an increase to 85 
percent of the total modeled requirement and will allow us to conduct 
more deliberate preventive maintenance activities. The $2.2 billion 
restoration and modernization portion of the request, an increase of 
$600 million over the fiscal year 2019 request, will enable the Army to 
continue addressing our most critical maintenance backlog requirements. 
Commanders continue to optimize their resources and facilities by 
consolidating units into our best facilities; maximizing space 
utilization; and disposing of excess facilities.
                         installation readiness
    The Army's energy security and sustainability program continues to 
reduce our reliance on external utility systems; improve energy and 
water efficiency; increase reliability and efficiency of energy and 
water systems; and enable mission readiness. As our adversaries 
continue to develop capabilities to disrupt commercial power grids, we 
appreciate the continued support of Congress for the Army's energy 
security and resilience initiatives in order to ensure our ability to 
train, mobilize, and project power from our installations to support 
warfighter requirements.
    Reliable energy and water supplies are crucial enablers for 
maintaining Army mission readiness. The potential disruption of energy 
and water services from cyber- attack or extreme weather events pose a 
continuous threat to installations and the missions they support. The 
Army has established requirements to secure critical missions by 
ensuring secure access to energy and water; reliable infrastructure 
conditions; and effective system operations, including holistic 
planning and exercising of emergency operations plans with scenarios 
that address grid outages.
    Our installation energy budget request is focused on enhancing 
mission effectiveness. The Army continues to leverage private sector 
expertise and investment to improve system reliability; reduce 
consumption; and improve energy and water resilience. The Army leads 
the Federal government in the use of Energy Savings Performance 
Contracts and Utility Energy Service Contracts.
    Our fiscal year 2020 environmental program budget request of $914 
million will keep the Army on track to meet cleanup goals and maintain 
full access to important training and testing land, both integral 
components of Army readiness.
    The Army manages more than 13.8 million acres of land on which we 
interact with endangered species; preserve historic sites; and restore 
critical or contaminated land. Performing these functions effectively 
permits us to respect environmental requirements and continue Army 
operations while protecting our Soldiers and Families.
                               conclusion
    America's Army stands ready to deploy, fight and win our Nation's 
wars. With your continued support, our installations will remain ready, 
secure and resilient to enable Total Army mission readiness and provide 
a high quality of life for Soldiers and Families. As the Army 
modernizes its weapon systems, our facilities must keep pace. We 
appreciate your continued assistance to ensure our Army has the best 
facilities for the best fighting force in the world.

    Senator Boozman. Thank you. Vice Admiral Smith.
STATEMENT OF VICE ADMIRAL DIXON R. SMITH, UNITED STATES 
            NAVY, DEPUTY CHIEF OF NAVAL OPERATIONS FOR 
            FLEET READINESS AND LOGISTICS
    Admiral Smith. Thank you, sir.
    Chairman Boozman, Ranking Member Schatz, and distinguished 
members of the subcommittee, I appreciate the opportunity to 
provide an overview of the Navy's fiscal year 2020 military 
construction budget request. On behalf of our sailors and their 
families, thank you for your continued support of the Navy, its 
military construction program, and our 71 installations around 
the world, which enable the Navy the Nation needs.
    The missions accomplished at and from the shore enable a 
bigger, better, and more ready Navy as we engage in a great 
power competition. We undertake a deliberate annual review to 
prioritize our proposed investments and ensure that we provide 
the necessary investments to underpin the fleet's mission in 
support of the National Defense Strategy. The Navy's fiscal 
year 2020 MILCON budget request of approximately $1.5 billion, 
includes 22 projects that will increase lethality and 
strengthen alliances.
    The proposed investments deliberately target new platform 
capability, fielding and employment, recapitalization of 
waterfront and shipyard infrastructure, foundational 
warfighting missions, including power projection and shore 
requirements to maintain our global presence.
    Additionally, our facilities sustainment, restoration, and 
modernization request of $2.3 billion will help to improve 
sustainment of our most critical facilities. This is the fourth 
consecutive year Navy has increased FSRM funding. The Navy will 
begin to reduce the facilities maintenance backlog with the 
fiscal year 2020 budget request, but it will take several years 
of a consistent resourcing to achieve full recovery.
    Recognizing that shore readiness is an enabler for force 
generation and critical logistics capabilities to support the 
fight, our fiscal year 2020 request helps to maintain the 
positive momentum from the three previous budget cycles. 
However, the path to full readiness recovery will take a long-
term commitment of resources, predictable funding, and time.
    It is a privilege to testify before the committee today and 
share the details of our proposed fiscal year shore 
investments. Congress is our critical partner to achieve the 
Navy the Nation needs. With stable and predictable funding, we 
continue to invest smartly, driving efficiency and ensuring the 
best return on the investment for the Nation, our sailors, and 
civilians.
    Again, thank you for your support for the Navy's shore 
infrastructure programs, and I look forward to your questions. 
Thank you.
    [The statement follows:]
           Prepared Statement of Vice Admiral Dixon R. Smith
    Chairman Boozman, Ranking Member Schatz, and distinguished members 
of the Committee, it is an honor to appear before you representing the 
thousands of Navy Sailors and civilians at our seventy-one 
installations worldwide. Thank you for the opportunity to testify about 
how our fiscal year 2020 Military Construction (MILCON) request best 
provides these dedicated professionals the facilities they require to 
carry out their mission aligned to strategy.
    The President's National Security Strategy clearly sets forth the 
priorities directing our Navy to maintain ready forces and invest in 
readiness to maintain ``The Navy the Nation Needs'' which includes 
infrastructure maintenance and modernization. Further, the Navy is 
supporting the National Defense Strategy (NDS) that articulates the 
Department of Defense's mission--to maintain a lethal, resilient, and 
rapidly innovating force. Today I look forward to sharing with you our 
proposed MILCON projects that enable fleet lethality as well as support 
for our service members and their families.
    Our shore infrastructure is an integral component to achieving the 
six pillars of the Navy's mission: (1) a bigger, (2) better, (3) 
networked, (4) talented, (5) agile, and particularly (6) ready fleet. 
To enable that ready fleet in fiscal year 2020, the Navy is requesting 
nearly $2.3 million in facility sustainment to support infrastructure 
worldwide. The MILCON resourcing of $1.47 billion allows for the 
execution of 22 projects, to include six overseas projects in support 
of the global reach and persistent presence of a forward-deployed naval 
force.
    On behalf of the CNO, I also want to express the Navy's 
appreciation to Congress for enacting the fiscal year 2019 
Appropriations Bill that funds increased shipyard investments and 
contributes to improving necessary infrastructure that enables the 
Fleet and our warfighting missions.
    Today I would like to share with you how the Navy plans to align 
our Shore Infrastructure portfolio in fiscal year 2020 to maintain 
resiliency and lethality in The Navy the Nation Needs.
                         military construction
    In fiscal year 2020, the Navy made a deliberate investment in 
military construction (MILCON) to increase lethality, capacity and 
capability. The MILCON budget request includes 22 projects, planning 
and design (P&D), and unspecified military construction at a value of 
$1.47 billion.
    More than 80 percent of the MILCON program is in direct support to 
the National Defense Strategy's highest priorities of increasing 
lethality, strengthening alliances, and enabling new Navy Platforms and 
Missions. This program also invests in restoring warfighting readiness 
and further advancing the restoration of our Naval Shipyards and 
support to the Navy Reserves.

Increasing Lethality/New Platform ($898 million, 14 projects)

  --Ammunition Pier--Seal Beach, CA ($95 million)

  --CMV-22B Maintenance Hangar--Coronado, CA ($87 million)

  --Alert Force Facility--Fairfield, CA ($64 million)

  --Pier 8 Replacement--San Diego, CA ($59 million)

  --Replace SSN Berthing Pier 32--New London, CT ($72 million)

  --Master Time Clocks and Operations Facility--Washington, DC ($76 
        million)

  --Targeting and Surveillance System Facility--Jacksonville, FL ($32 
        million)

  --EOD Compound Facilities--Guam ($62 million)

  --Magazine Consolidation, Phase 1, West Loch--Pearl Harbor, HI ($54 
        million)

  --Runway 08/26 and Taxiway Hotel Extension--China Lake, CA ($65 
        million)

  --D5 Missile Motor Receipt/Storage Facility--Hill Air Force Base, UT 
        ($51 million)

  --Mariner Skills Training Center--Norfolk, VA ($79 million)

  --Undersea Vehicle Maintenance Facility--Kitsap, WA ($25 million)

  --Communications Station--Sigonella, Italy ($77 million)

Strengthen Alliances/European Deterrence Initiative (EDI) ($298 
million, 5 projects)

  --Pier 5 Replacement--Yokosuka, Japan ($175 million)

  --Electrical System Upgrade--Bahrain ($53 million)

  --EDI: Joint Mobility Center--Rota, Spain ($47 million)

  --EDI: Small Craft Berthing Facility--Rota, Spain ($13 million)

  --EDI: In-Transit Munitions Facility--Rota, Spain ($$10 million)

Shipyard Investment ($100 million, 2 projects)

  --Dry Dock Flood Protection Improvements--Norfolk, VA ($49 million)

  --Dry Dock 4 and Pier 3 Modernization--Puget Sound NSY, WA ($51 
        million)

Supporting the Navy Reserves ($25 million, 1 project)

  --Main Gate Relocation--New Orleans, LA ($25 million) MILCON Planning 
        and Design ($100 million)

MILCON Planning and Design ($100 million)

Unspecified Minor Construction ($46 million)
     facilities sustainment, restoration, and modernization (fsrm)
    Further, the fiscal year 2020 budget requests $2.3 billion to 
sustain infrastructure, and improve our facility sustainment from 80 
percent of the Department of Defense (DoD) model in fiscal year 2019 to 
85 percent in fiscal year 2020. While still below the DoD goal of 90 
percent facilities sustainment, this is the fourth straight year the 
Navy has increased this funding level in its budget request, 
acknowledging our commitment to a more balanced investment to support 
Navy wholeness. The Navy will begin to reduce the facilities 
maintenance backlog with the fiscal year 2020 budget request with 
consistent resourcing to achieve full recovery.
                             family housing
    Our Sailors and their families deserve safe, quality living 
quarters and commands must advocate for their health, safety, and well-
being. The Navy takes this issue very seriously, and is taking 
deliberate action to identify problems and work with our commands and 
Public Private Venture (PPV) partners to ensure we develop a working 
relationship that supports the provision of quality housing operations. 
Immediate action has been taken to reach out to every family in Navy 
housing and to develop remediation plans to ensure our Sailors' living 
conditions in government family and PPV housing offers the quality of 
life standards which they deserve.
    To that end, we have directed required actions by our Navy commands 
to assess current conditions, address family concerns, evaluate PPV 
relationships and oversight, and provide findings to Commander, Navy 
Installations Command to adjust business practices that will ensure an 
expeditious, enduring, and comprehensive resolution.
    In order to continue operations while planning for overall housing 
improvement, the fiscal year 2020 Family Housing budget request 
provides $281.3 million for the operation and maintenance of almost 
7,000 government-owned homes, leases for approximately 1,700 units, 
major maintenance and repair to more than 500 units, and oversight of 
nearly 40,000 privatized housing units. The Family Housing construction 
request of $27.8M million will assist in the elimination of inadequate 
units at Naval Station Rota, Spain and Fleet Activities Yokosuka, Japan 
by renovating 82 homes.
                         base operating support
    Our fiscal year 2020 budget request invests $4.73 billion in base 
operating support, a slight decrease from fiscal year 2019 ($4.75 
billion), essentially unchanged since the enactment of the Budget 
Control Act in 2013. This funding level provides compliant outputs and 
service levels at our installations, and we prioritize resources to 
minimize impact to mission, force protection, and quality of life at 
the expense of other base operating support functions. While funding 
for installation services and facility support has been constrained, 
the Navy remains committed to deliberately and effectively managing 
each base operating support program within available resourcing.
                  base realignment and closure (brac)
    The Navy's fiscal year 2020 budget request includes $158 million 
for installations closed in previous BRAC rounds; $148 million of this 
is for environmental cleanup. The Navy has completed disposal of 94 
percent of property (177,842 acres) with the remaining 6 percent 
representing 11,151 acres at 16 former installations. Over 50 percent 
of the remaining property is at two BRAC 2005 installations (NAS Joint 
Reserve Base Willow Grove, PA, and NWS Concord, CA). The majority of 
the remaining property transfers are planned to occur by 2027. There 
are 27 former installations (with no property remaining for transfer) 
which still require environmental cleanup or monitoring.
    I appreciate Congress' support of the environmental cleanup efforts 
at the former Hunters Point Naval Shipyard. Fraudulent contractor work 
delayed property transfers in support of redevelopment, and extensive 
rework on low-level radiological cleanup is expected to begin in 2019. 
Additionally, PFOS and PFOA have impacted public and private drinking 
water supplies at multiple BRAC installations. In fiscal year 2019, 
initial sampling and/or evaluations will be completed at 35 former 
installations with known or suspected PFOS and PFOA. Over $73 million 
has been spent as of 1 October 2018 and future costs for cleanup are 
expected to increase as EPA and state guidance/regulations evolve.
                               conclusion
    The Navy the Nation Needs requires shore infrastructure worldwide 
that can support and win both a short and prolonged fight. Therefore, 
the Navy continues to prioritize the readiness of the force through the 
balance of resourcing. We are steadfastly focused on prioritizing 
investments that increase naval power as directed by the National 
Defense Strategy. Thank you for your unwavering support and commitment 
to our Navy's readiness, as well as your dedication to the Navy's 
service members and their families.

    Senator Boozman. Thank you. Major General Coglianese.
STATEMENT OF MAJOR GENERAL VINCENT A. COGLIANESE, 
            UNITED STATES MARINE CORPS, COMMANDER, 
            MARINE CORPS INSTALLATIONS COMMAND, AND 
            ASSISTANT DEPUTYCOMMANDANT, INSTALLATIONS 
            AND LOGISTICS (FACILITIES)
    General Coglianese. Thank you, sir.
    Chairman Boozman, Ranking Member Schatz, and distinguished 
members of the committee, as the Commander for Marine Corps 
Installations Command, I am eager to continue to work with you 
to improve our installation infrastructure. Marine Corps 
installations represent an invaluable national asset. They are 
fundamental to combat readiness and to generate combat power.
    As stated in the National Defense Strategy, our 
installations are both at stateside and forward deployed, are 
vulnerable to a growing host of sophisticated threats. 
Mitigating these threats requires continuous support from 
Congress to strengthen our ability to operate and maintain 
these assets and to set the condition for future development 
and the relevance of our installations.
    Additionally, our installations are home to our Marines, 
sailors, and families. We must provide safe housing and 
sufficient community support infrastructure for their well-
being.
    Although Florence hit landfall over 6 months ago, the 
Marine Corps at Base Camp Lejeune, Marine Corps Air Station New 
River, and Marine Corps Air Station Cherry Point are still 
reeling from the impact. The storm was a gut punch. It was the 
second-wettest storm on record. We sustained damage from 35 
inches of rain and a hurricane-force wind that was crawling 
over our base at single-digit miles per hour.
    Additionally, other Marine Corps regionals--regions and 
installations took a knee on their critical readiness projects 
that are focused on life, health, and safety as we diverted 
funds to the affected bases on the east coast. We are grateful 
to OSD and Congress for recently approving $400 million in O&M 
reprogramming for fiscal year 2019.
    These funds will immediately go to recovering operations 
down at Camp Lejeune, yet the money is not enough for this 
year. We still need to pay back the Marine Corps' other 
installations across the other regions. It will require 
additional funding in 2019 and the support of Congress.
    The total hurricane recovery is a cost of $3.7 billion, 
including 31 replacement projects. The 31 projects will 
actually replace 133 buildings. That will cost nearly $2 
billion to repair--to replace, I am sorry. The repairs to the 
existing buildings will cost $1.3 billion. The remaining $400 
million will go towards related equipment.
    Since the storm, the Marine Corps and Navy Facilities 
Engineering Command have been driving at the problem shoulder 
to shoulder and have addressed the immediate life, health, and 
safety concerns at a cost of about $244 million with our 
limited operations and maintenance accounts.
    Marines and sailors are still occupying buildings and homes 
in need of repairs. Over 3,300 Marines and sailors are 
displaced across Camp Lejeune area and now are determined to 
make do in degraded facilities or poorly configured workspaces 
such as trailers. Due to Hurricane Michael, we have depot-level 
maintenance facilities exposed to the elements at Marine Corps 
Logistics Base Albany, impacting mission readiness.
    Over 900 facilities across our east coast bases have been 
compromised. Five hundred of these buildings have been severely 
damaged and cannot be occupied. Camp Lejeune is home to the II 
Marine Expeditionary Force and represents over one-third of 
combat power in the Marine Corps.
    Critical ranges and training areas support II MEP and 
Marine Corps Special Operations Command, and they remain 
degraded. Damaged infrastructure to roads, railroad trestles, 
beaches impede our strategic mobility and capacity to deploy.
    Family housing, both on base and the surrounding community, 
has been severely impacted. We have Marines executing permanent 
change station orders to Camp Lejeune this summer, and due to 
lack of housing, many are making the hard choice to temporarily 
leave their families behind.
    Marines are resilient, expeditionary, and adaptable. 
However, we are going to need some help to keep faith with them 
and ensure their optimal readiness. The Marine Corps fiscal 
year 2020 military construction budget includes 18 projects 
valued at approximately $1.5 billion. It focuses on supporting 
recapitalization and new platforms and training.
    The Commandant's infrastructure reset strategy, when 
properly resourced and implemented, will improve infrastructure 
lifecycle management. We must prioritize infrastructure reset 
over the long term. We must improve infrastructure lifecycle 
management and ensure the infrastructure investments are 
aligned with the Marine Corps capability-based requirements 
that support our warfighting mission and contribute directly to 
the current and future force readiness.
    The amount of damages these hurricanes caused to our 
infrastructure cannot be overstated. More importantly, it has 
impeded our ability to support the mission and the capabilities 
of Marines and sailors stationed in North Carolina and Georgia. 
With your continued support, we will fix these bases while 
improving their resiliency.
    Thank you for your time and the opportunity to speak on 
behalf of the Marines, sailors, and civilians, and their 
families. I look forward to your questions.
    [The statement follows:]
       Prepared Statement of Major General Vincent A. Coglianese
                                preface
    Chairman Boozman, Ranking Member Schatz, and distinguished Members 
of the Committee, I appreciate the opportunity to discuss the Marine 
Corps installations infrastructure programs which are critical to our 
ability to train forces and maintain readiness. Thanks to the strong 
support we have received from Congress, the Marine Corps has been able 
to make significant improvements in the quality and condition of our 
installation infrastructure.
    Marine Corps installations represent an irreplaceable national 
asset. They are fundamental to combat readiness, particularly the 
generation of combat power. Additionally, they are home to our Marines, 
Sailors and their families, and will continue to be integral to their 
quality of life through housing and community support infrastructure.
    As Commander, Marine Corps Installations Command, and the single 
authority on all Marine Corps installation matters, the protection of 
our installations is my number one priority. There are several 
challenges in the current operating environment, and all the signs 
indicate those challenges will compound and grow. The most recent 
National Defense Strategy asserts the homeland is no longer a 
sanctuary, and recent asymmetric attacks on military installations 
across the country highlight the insider threat. Our installations are 
vulnerable targets for a growing host of sophisticated threats intent 
on disrupting and degrading our ability to generate combat power in 
support of the National Defense Strategy. Ensuring the protection of 
life and property serves to ensure our ability to execute those 
essential operations that enable the training and deployment of our 
combat forces. Maintaining the maneuver space to adapt and evolve our 
protection measures must occupy a central place in our conversations of 
modernization and readiness. It is imperative we have the ability and 
authority to execute investments that afford protection against both 
inside and outside threats.
    The operation and maintenance of these installations, as well as 
their future development and use, require long-term planning, careful 
investment, and timely program execution. Implementation of the 
Commandant's Infrastructure Reset Strategy will ensure our 
installations are capable of supporting Marine Corps operations well 
into the future.
    The Marine Corps has installations and support infrastructure 
worldwide valued at more than $110 billion that are used to train, 
house, and provide quality of life for Marines and their families. This 
infrastructure must be properly maintained to prevent degradation of 
our capability to support these mission-essential tasks. Adequately 
protecting our installations, supporting new warfighting and training 
capabilities, and sustaining infrastructure are top installation 
management priorities for the Marine Corps.
               impacts of hurricanes florence and michael
    Although Hurricane Florence made landfall over 6 months ago, Marine 
Corps Base Camp Lejeune, Marine Corps Air Station New River, and Marine 
Corps Air Station Cherry Point are still recovering and feeling the 
impacts. Camp Lejeune, home to the II Marine Expeditionary Force, is a 
huge source of generating combat power. Several headquarters buildings, 
training facilities, and aircraft hangers were affected. Many of our 
ranges and training areas supporting II Marine Expeditionary Force and 
Marine Corps Special Operations Command remain degraded. Damaged 
infrastructure, to include roads, railroad trestles, and beaches, have 
degraded our strategic capacity to deploy.
    Roughly 800 buildings between the Marine Corps Base Camp Lejeune, 
Marine Corps Base New River, and Marine Corps Air Station Cherry Point 
have been compromised. About 500 of those buildings have been damaged 
severely and are incapable of being occupied. Between Hurricane 
Florence and subsequently Hurricane Michael which damaged facilities at 
Marine Corps Logistics Base Albany, we have a $ 3.4 billion 
requirement.
    For the $3.4 billion hurricane recovery requirement, 30 replacement 
projects--to include new military construction and demolition--will 
cost nearly $ 1.7 billion. Repairs to existing buildings will cost $1.3 
billion. The remaining $400 million will go to replacement for 
destroyed IT systems and other repairs.
    Between September 2018 and December 2018, the Marine Corps and 
Naval Facilities Engineering Command addressed immediate life, health, 
and safety issues at a cost of $78 million in Facilities Sustainment, 
Restoration, and Modernization (FSRM) funding.
    During this same time period, the Marine Corps developed its $1.3 
billion FSRM repair estimate and further transitioned to construction 
design and contracting strategy. Since January 2019, we have been 
acting on our plan by releasing requests for proposals to industry. To 
date, our only financial recourse has been to divert FSRM funding away 
from every other base and station in the Marine Corps into North 
Carolina and Georgia. This self-financing strategy will not fully 
repair the hurricane damage. A self-financing strategy guarantees 
degradation of our infrastructure in California, Arizona, Hawaii, 
Virginia, South Carolina and any other state in which there is a Marine 
Corps installation. Additionally, this self-financing strategy will 
also impact our ability to meet our Infrastructure Reset Strategy 
goals--especially when considering our plans for demolition and 
elimination of poor and inadequate facilities.
    Hurricane recovery will take years to complete given the impact to 
our previously outdated infrastructure that was not designed to survive 
hurricane force winds and rain. We look forward to working with 
Congress to implement and support recovery efforts at the impacted 
installations.
                      impact of budget uncertainty
    With Congress' strong support, the Marine Corps has made 
significant progress over the last 10 years in replacing old and 
unsatisfactory infrastructure. We appreciate actions taken by Congress 
to enact the Bipartisan Budget Act of 2018 that provided relief from 
the Budget Control Act defense spending caps in both fiscal years 2018 
and 2019. However, budget uncertainty beyond fiscal year 2019 will 
erode our readiness and will continue to have negative impacts on our 
ability to make long-term decisions necessary for a healthy 
infrastructure portfolio. Long-term reduced funding of installations 
requirements will result in gradual degradation of our infrastructure 
and create a bow wave of increased future costs to return these assets 
to adequate condition. Your Marine Corps requires continued support 
from Congress with predictable budgets over a sustained period in order 
to maintain and improve infrastructure readiness.
    To maintain near-term operational readiness in previous years, the 
Marine Corps was forced to accept risk in its infrastructure portfolio. 
Taking risk in the facilities sustainment, restoration and 
modernization, and military construction programs resulted in the 
degradation of our infrastructure, which in turn increases lifecycle 
costs. Improving the current state of our installations is the single 
most important investment to support training, operations, and quality 
of life.
    The Marine Corps has prioritized military construction projects 
that support new weapons platforms (primarily the F-35) and other 
projects associated with life, health, and safety concerns. Congress 
has been very supportive of prior military construction budget 
requests. Thanks to Congress, the Marine Corps has received funding for 
many projects that positively impact readiness and training.
    As part of ongoing business reform initiatives, the Marine Corps' 
Infrastructure Reset Strategy seeks to improve infrastructure lifecycle 
management and ensure infrastructure investments are aligned with 
Marine Corps installations that are capable, adaptive, and economically 
sustainable platforms from which to generate readiness and project 
combat power in a fiscally constrained environment. Implementation of 
this strategy consolidates and appropriately resets the infrastructure 
footprint within existing installations to improve operational 
readiness and generate resources for reinvestment. Successful execution 
of this strategy will depend on future budget stability as well the 
provision of additional funds to recover from Hurricanes Florence and 
Michael.
    Our installations provide three critical force enabling functions. 
First, they are deployment platforms from which our expeditionary 
forces fight and win our Nation's battles; second, they are where our 
Marine Air Ground Task Forces (MAGTFs) train and hone their combat 
readiness; and third, they house our Marines and families. We must 
prioritize the Infrastructure Reset Strategy--we must improve 
infrastructure lifecycle management and ensure infrastructure 
investments are aligned with Marine Corps capability-based requirements 
to support the warfighting mission and contribute directly to current 
and future readiness.
                         military construction
    The Marine Corps' fiscal year 2020 Military Construction (MILCON) 
program includes 18 projects valued at approximately $1.488 billion 
which is an 89 percent increase over the fiscal year 2019 enacted 
budget of $786 million. This increase is primarily due to additional 
funding for projects supporting recapitalization, new platform, and 
training.
    Marine Corps MILCON requirements are driven by operating force and 
other mission requirements such as: (1) introducing new platforms or 
weapons; (2) relocating forces to better position assets to meet the 
national military strategy; (3) meeting force protection or safety 
standards; (4) enhancing or replacing infrastructure that is in poor or 
failing condition; (5) meeting new and improved training standards for 
the 21st century Marine Corps; (6) modernizing critical infrastructure; 
(7) improving utilities reliability and resilience to support 
readiness; (8) meeting environmental regulations and laws and energy 
reduction mandates; (9) improving training areas to include aerial/
ground ranges; and (10) acquiring land needed to support training.
    The primary focus areas of the fiscal year 2020 Marine Corps MILCON 
budget request include: (1) supporting the beddown of new capabilities 
and platforms; (2) providing infrastructure to support force 
relocations; (3) recapitalization and replacement of inadequate 
facilities; and (4) training and concept development/testing. Our 
fiscal year 2020 budget accomplishes the following:

  --Supports new platforms such as Joint Strike Fighter (F-35), CH-53K 
        King Stallion helicopter, and Amphibious Combat Vehicle (ACV) 
        with new aircraft and vehicle maintenance facilities and 
        training buildings.

  --Supports implementation of Force 2025, the future Marine Corps, 
        which will be increasingly reliant on naval deployment, 
        preventative in approach, leaner in equipment, versatile in 
        capabilities, and innovative in mindset.

  --Supports planning and execution of the Marine Corps' Wargaming 
        Program of simulation and modeling of future warfighting 
        environments.

  --Provides training and quality of life infrastructure to support the 
        relocation of Marines from Japan to Guam.

  --Replaces and modernizes numerous inadequate and obsolete facilities 
        and infrastructure in order to improve operations, quality of 
        life, and training.

  --Supports our Reserve component with operational and training 
        facilities via the unspecified minor construction program.
        infrastructure sustainment, restoration, and demolition
    The President's Budget for fiscal year 2020 funds 88 percent of the 
OSD facilities sustainment model requirement for the Marine Corps. When 
restoring and modernizing our infrastructure, we prioritize life, 
health, and safety issues and efficiency improvements to existing 
infrastructure and focus on repairing only the most critical components 
of our mission critical facilities. By deferring less critical repairs, 
especially for non-mission critical infrastructure, some facilities 
will continue to degrade causing our overall facilities maintenance 
backlog to increase.
    The first step in addressing this backlog is reflected in the 
Marine Corps request of $79 million in fiscal year 2020 for the 
demolition of 2.7 million square feet of failing and obsolete 
facilities to enable implementation of the Commandant's Infrastructure 
Reset Strategy.
                             family housing
    Our worldwide family housing inventory is 93 percent privatized, 
which has improved the homes in which our families live and other 
support infrastructure such as community centers, playgrounds, and 
``green spaces'' that help create neighborhoods and a sense of 
community for our Marines and their families. Combined with traditional 
military construction, privatized housing will continue to build and 
improve the homes necessary to supplement local community housing.
    The overall goal of the Military Family Housing Privatization 
program is to provide safe, quality, and affordable housing to our 
military families comparable to what is available on the local economy. 
Our Public Private Venture (PPV) partners are responsible for providing 
the day-to-day operations. The Marine Corps is responsible for 
providing the required oversight of the homes to ensure that they are 
habitable, that any identified health concerns are properly addressed 
and that residents are being charged fairly for services received, 
including billing under the Resident Energy Conservation program 
(RECP).
    The Marine Corps views their role as a top priority, and takes the 
following steps to hold PPV companies accountable for providing 
suitable housing for our service members:

  --Ensures that the PPV partner maintains a 24-hour hotline and 
        responds to maintenance requests in a timely manner

  --Works with the PPV partner to provide seminars and educational 
        materials to residents with tips on home maintenance and energy 
        conservation

  --Tracks systemic issues on a monitoring matrix and works with the 
        PPV partners to resolve

  --Requires annual certifications by the PPV Partner certifying 
        compliance with applicable environmental regulations

  --Participates in annual condition assessments to assess the 
        suitability of the homes and neighborhoods

  --Publicizes the three-step resolution process for residents: (1) 
        Contact the PPV office; (2) Contact the Regional PPV Manager; 
        (3) Contact the Installation Housing Office--ensures engagement 
        at all levels to keep homes habitable

  --Requires PPV partners to disclose any known hazards at move-in and 
        have residents sign applicable mold, lead, or asbestos 
        addendums acknowledging their awareness of the hazard and any 
        recommended precautionary measures

  --Reviews resident comments on surveys

  --Proactively initiates audits and/or special studies and reviews 
        mitigation plan when warranted

    The Marine Corps is actively engaged with ensuring that privatized 
homes are safe, suitable, and affordable. The Commandant of the Marine 
Corps recently issued a directive to address concerns about living 
conditions in both on- and off-base housing. The Commandant directed 
all Marine Corps commanders and senior enlisted leaders to request a 
voluntary home visit with each Marine and Sailor in their command 
(regardless of rank) who resides in government quarters, privatized 
military housing, or an off-base civilian rental property. The intent 
of the visits is to: (1) raise awareness of the member's living 
conditions to ensure it is safe, secure, and environmentally healthy, 
(2) identify maintenance or safety issues affecting the residence, 
determine any actions taken to date to remedy them, and determine how 
the chain of command can assist in the resolution process, and (3) 
ensure our members and their families are aware of and understand the 
support processes and programs available. Our Marines, Sailors and 
their families should know their leaders care for their well-being and 
are both ready and willing to help.
    Recently, the Marine Corps stood up its Housing Improvement Team 
with the goal of reviewing opportunities to improve Marine Corps 
oversight and the performance of the PPV partners. This team is 
additionally working with the other services in a collaborative effort 
to share best practices and a universal way forward. Some of the 
current opportunities being reviewed by the Housing Improvement Team 
include:

  --Working with the other services on a joint Resident Bill of Rights.

  --Assessing areas to amend the Business Agreements to allow 
        additional DON discretion and review of incentive fee criteria 
        and structure.

  --Evaluating the Marine Corps Housing Office staffing levels to 
        ensure the Marine Corps is appropriately staffed to complete 
        additional oversight of our PPV partners while providing 
        increased resident advocacy support. Marine Corps will also 
        look to increase training and education for its housing staff.

  --Reviewing with our PPV partners options for maintenance process 
        improvement, including technology based forums like mobile 
        phone applications for tracking service tickets and other 
        possibilities.

  --Educating and encouraging installation leadership to become 
        actively engaged with the PPV partner including performance 
        review, resident satisfaction, and budget and recapitalization 
        input. Additionally the Marine Corps will look to better train 
        installation leadership for PPV awareness and interaction.

  --Reenergizing the Operating Force Command engagement and feedback 
        for housing improvement and resident advocacy.

    The Marine Corps is not requesting any new family housing 
construction in fiscal year 2020 through either traditional MILCON or 
through the use of privatization authorities. However, we are 
requesting $19.9 million in the family housing, construction 
improvements account for the sustainment and restoration of 44 enlisted 
family housing townhouse units at MCAS Iwakuni, Japan in order to 
continue with the renovation of Iwakuni housing neighborhoods along 
with design for future projects. This will provide much needed 
improvements to quality of life for our Marines and their families 
stationed overseas.
                               conclusion
    The Marine Corps must quickly recover the devastating effects of 
Hurricanes Florence and Michael, and continue implementation of our 
Infrastructure Reset Strategy. As outlined in the National Defense 
Strategy, our installations must prove resilient in the face of the 
threats we face. We must modernize our installations to protect our 
blunt and surge layer forces and reassure our partners and allies. Our 
operational capabilities are adapting to meet these changes, and we 
need to invest in a next generation installation infrastructure to 
match the growing MAGTF capability. Your support is crucial as we begin 
to develop installation infrastructure to support our Next Generation 
MAGTF. The fiscal year 2020 budget request supports this premise.
    Thank you for the opportunity to testify before you today. I look 
forward to working with you to sustain the warfighting capability, the 
readiness of our power projection platforms and quality of life of the 
Marine Corps.

    Senator Boozman. Thank you. Brigadier General Allen.
STATEMENT OF BRIGADIER GENERAL JOHN J. ALLEN, DIRECTOR 
            OF CIVIL ENGINEERS, DEPUTY CHIEF OF STAFF 
            FOR LOGISTICS, ENGINEERING, AND FORCE 
            PROTECTION, UNITED STATES AIR FORCE
    General Allen. Thank you, sir.
    Chairman Boozman, Ranking Member Schatz, and distinguished 
members of the subcommittee, I am honored to appear before you 
today to represent the Air Force.
    The Air Force fights from its bases. They serve as our 
power projection platforms from which we build, deploy, and 
employ ready forces. Decades of challenging fiscal conditions 
and global operations have required that we accept managed risk 
in installation infrastructure, which, left unchecked, will 
negatively impact Air Force missions. The fiscal year 2020 
President's budget request takes the first steps in a years-
long path to recovery to ensure our installations are ready to 
confront future threats.
    The result is a budget request aligned with the National 
Defense Strategy to enhance readiness for the high-end fight. 
To stabilize and sustain our installations, the Secretary of 
the Air Force signed the Infrastructure Investment Strategy, 
which provides a framework for investments in facilities 
sustainment, restoration, modernization, and recapitalization.
    This strategy is being executed along three primary lines 
of effort. First, we will restore readiness to our power 
projection platforms. Second, we will cost effectively 
modernize our infrastructure. And third, we will drive 
innovation in installation management. Our military 
construction budget request is a key enabler of the 
Infrastructure Investment Strategy and has increased by $400 
million from fiscal year 2019.
    Aligned with the National Defense Strategy, the MILCON 
program prioritizes resources to the high-end fight, 
demonstrates strength to our adversaries and commitment to our 
allies, and supports global posture through new weapon system 
beddowns and aging infrastructure recapitalization.
    In fiscal year 2020 the Air Force will leverage MILCON 
funds to set deterrence conditions in the European theater, 
enhance partnerships and regional resilience in the Indo- 
Pacific, and strengthen logistics infrastructure to rapidly 
support operations in the Levant.
    Our MILCON request also supports continuing modernization 
of our aging aircraft fleet, including hangars, maintenance and 
training facilities, airfields, and fuel infrastructure that 
aircraft require to achieve full operating capability. fiscal 
year 2020 MILCON funds will also address urgently needed 
existing mission recapitalization focused on the nuclear 
enterprise and research development tests and evaluation 
infrastructure.
    Equally as vital as the Air Force MILCON budget is the 
facilities sustainment, restoration, and modernization account, 
which provides a non-MILCON pathway for mission-critical 
projects. This year's requested FSRM budget represents a 
considerable increase over the previous year, setting the stage 
for consistent, stable, and predictable funding for Air Force 
installations.
    In addition to strong installation infrastructure, ready 
and resilient airmen are critical components of a lethal, 
powerful Air Force. The Air Force remains committed to 
providing airmen and their families with quality housing and a 
sense of community on our installations. The fiscal year 2020 
President's budget request focuses military family housing 
funds on eliminating inadequate housing from our Government-
owned inventory.
    The fiscal year 2020 President's budget request, coupled 
with the Installation Investment Strategy, invests in a 
resilient and lethal force ready to fight and win in an era of 
great power competition. I thank you again for the opportunity 
to testify today, and I look forward to your questions.
    [The statement follows:]
       Prepared Statement of Brigadier General John J. Allen, Jr.
                              introduction
    Chairman Boozman, Ranking Member Schatz, and Members of the 
Subcommittee, thank you for your continued support of the U.S. Air 
Force. I am honored to appear before you today to represent our Airmen 
and their families and to discuss the Air Force's fiscal year 2020 
budget request.
    The foundation of Air Force readiness and lethality is an 
integrated network of installations which enables global power 
projection and provides safe, healthy communities for our Airmen and 
their families. Decades of challenging fiscal conditions and global 
operations have required that we accept managed risk in installation 
infrastructure which, if left unchecked, will negatively impact Air 
Force missions.
    In preparing the fiscal year 2020 President's Budget request, the 
Air Force deliberately evaluated both today's needs and the 
capabilities required to confront future threats. The result is a 
budget aligned with the National Defense Strategy to enhance readiness 
for the high-end fight by supporting resilient installations and 
airmen. Ready and resilient installations are inextricably linked to 
the Air Force's ability to generate air, space, and cyber capabilities 
and deliver unmatched global advantage as a member of the joint team. 
This budget request balances installation readiness, capability, and 
capacity with the need to maintain and field a credible and affordable 
force today and into the future. Ultimately, in this era of great power 
competition, our priorities center on strengthening a lethal, ready Air 
Force positioned to compete and win in the high-end fight.
                infrastructure investment strategy (i2s)
    The Air Force fights from our installations. Generating combat 
power is about more than buildings and pavement; strategic location, 
surge capacity, airspace, and ranges are all critical components of 
readiness and lethality in support of the National Defense Strategy.
    To stabilize and sustain our installations, we introduced the 
Infrastructure Investment Strategy (I2S) last year. The I2S provides 
the framework for necessary investment in facilities sustainment, 
restoration, modernization and recapitalization. The I2S is being 
executed along three primary Lines of Effort:

  --Restore Readiness to Power Projection Platforms.--Resilient and 
        ready Air Force installations demonstrate strength to our 
        adversaries and commitment to our Allies

  --Cost Effective Modernization of Infrastructure.--Air Force 
        installations require investment for sustainment and 
        modernization to assure mission readiness

  --Drive Innovation in Installation Management.--Air Force 
        installations build and rely on strong relationships with 
        communities and private sector partners to leverage new 
        technologies

    Four imperatives will align and unify these lines of effort: (1) 
adequate and stable funding, (2) smart infrastructure business 
management, (3) unified efforts across the enterprise, and (4) 
revitalized squadrons. The I2S ensures mission-driven investments are 
timed to optimize lifecycle costs, maximizing space use in facilities 
in good condition and demolishing or divesting from those that are not 
cost effective to sustain or repair.
    The Air Force is implementing private sector best practices to 
ensure that we acquire and manage facility sustainment, restoration, 
and modernization materials and services as a single, efficient 
enterprise. These include developing cost management strategies 
specific to different spending categories, leveraging data to improve 
the timing of sustainment and recapitalization actions, and 
establishing standards of services and equipment to achieve economies 
of scale. These efforts to improve enterprise-wide cost efficiency are 
becoming increasingly critical as highly technological, fifth 
generation fighter aircraft arrive at various locations, requiring a 
larger logistical and sustainment footprint.
    Additionally, the Air Force has vastly improved asset visibility 
through sustainment management, geospatial information systems, and in-
depth facility condition assessments. As of October 2018, we have 
completed Facility Condition Assessments for 75 percent of all 
facilities, which are captured in our sustainment management system. 
This data enables unprecedented future requirements identification. We 
can ``see'' current requirements and ``predict'' future requirements 
through life-cycle degradation analysis. By leveraging asset visibility 
in conjunction with operations research analytics, we are able to run 
scenarios that include varying investment levels and varying policy 
decisions. These scenarios inform senior leaders of strategic 
investment trades, shaping future planning to ensure our installations 
remain mission- ready.
                         military construction
    The I2S focuses on mission-driven, well-timed investment, but the 
foundation is a recommitment to adequate, stable resourcing for Air 
Force infrastructure through our military construction (MILCON) and 
facility sustainment, restoration and modernization (FSRM) accounts. To 
support a dynamic global posture and increase lethality, our military 
construction (MILCON) budget has increased by $400 million from fiscal 
year 2019, bringing the fiscal year 2020 request to $2.72 billion. 
Aligned with the National Defense Strategy, the MILCON program 
prioritizes resources to the high-end fight, demonstrates strength to 
our adversaries and commitment to our allies, and supports global 
posture through new weapon system bed-downs and aging infrastructure 
recapitalization.
Combatant Command Infrastructure
    Our fiscal year 2020 MILCON request supports combatant commander 
requirements in Europe, the Indo-Pacific, the Middle East, and North 
America. We remain committed to efforts initiated by European Command 
(EUCOM) in fiscal year 15 to reassure North Atlantic Treaty 
Organization allies and European partners of the United States' 
commitment to our collective security and territorial integrity. The 
fiscal year 2020 European Deterrence Initiative (EDI) MILCON program 
builds on fiscal year 2019 efforts to set deterrence conditions in the 
theater and enable the joint team and our allies to respond quickly to 
aggressive regional actors. fiscal year 2020 EDI MILCON investment 
enhances EUCOM's materiel prepositioning options and improves airfield 
capacity, fuel systems, and munitions storage at bases in Iceland and 
across mainland Europe.
    The Air Force recognizes that a rapidly growing China aims to 
undermine long-standing alliances and displace American influence in 
the Indo-Pacific region. Our fiscal year 2020 budget request includes 
several infrastructure investments in the Pacific to enhance our 
partnerships and regional resilience. Our fiscal year 2020 budget 
request also enhances global reach and military cooperation between the 
United States and Australia through expansion of tanker capacity at 
RAAF Tindal, Australia.
    In support of Central Command, our budget request also includes two 
projects to continue the development of Muwaffaq-Salti Air Base in 
Jordan. These projects strengthen the resilience of logistics 
infrastructure needed to rapidly support operations in the Levant. 
Lastly, in support of Northern Command, our budget request includes 
funding for Air National Guard fighter alert shelters at Truax Field, 
Wisconsin.
New Mission Infrastructure
    The fiscal year 2020 President's Budget request supports continuing 
modernization of our aging aircraft fleet. The request includes 
facilities supporting Air Force weapons system acquisition and 
modernization programs including the F-35A, KC-46A, T-X, Presidential 
Aircraft Recapitalization, and UH-1 replacement. Achieving full 
operational capacity for new weapons systems depends not only on the 
aircraft acquisition, but on the delivery of necessary hangars, 
maintenance and training facilities, airfields, and fuel 
infrastructure.
    Major elements of our MILCON request supporting fleet modernization 
include KC-46A flight training facilities at Travis Air Force Base, 
California; and infrastructure enabling continued beddown of F-35A 
aircraft at Eielson Air Force Base, Alaska, Nellis Air Force Base, 
Nevada, and Royal Air Force (RAF) Lakenheath, United Kingdom. 
Additionally, this year's budget requests funding for the final 
increment of the Presidential Aircraft Recapitalization hangar and 
maintenance complex at Joint Base Andrews, Maryland. Lastly, our 
request includes projects at Joint Base San Antonio, Texas, for the 
planned T-X replacement of the T-38C, and a project at Kirtland Air 
Force Base, New Mexico, supporting replacement of the UH-1.
Existing Mission Infrastructure
    Our budget request substantially increases funding for urgently 
needed existing mission recapitalization compared to fiscal year 2019. 
Recapitalization efforts focus on two mission critical areas: the 
nuclear enterprise, and (2) research, development, test, and evaluation 
infrastructure. The fiscal year 2020 budget funds construction of a 
Weapons Storage Facility at Malmstrom Air Force Base, Montana, and the 
Ground Based Strategic Deterrent Mission Integration Facility at Hill 
Air Force Base, Utah. The weapons storage facility will replace an 
array of 24 facilities averaging over 50 years old with a modern 
consolidated facility, while the Ground Based Strategic Deterrent 
facility will provide a central hub for the research, development, and 
acquisition efforts necessary to replace the Minuteman III 
intercontinental ballistic missile. The fiscal year 2020 request also 
funds the second increment of construction for a new, state-of-the art 
laboratory space at the Massachusetts Institute of Technology's Lincoln 
Laboratory, a federally funded research and development center focused 
on solving problems with direct national security implications.
          facility sustainment, restoration and modernization
    While facility sustainment, restoration, and modernization (FSRM) 
funds are not appropriated by this committee, they are equally as vital 
as the Air Force MILCON budget, providing a non-MILCON pathway for 
mission-critical projects. The two funding streams work together to 
deliver ready, resilient installations. This year's proposed FSRM 
budget represents a considerable increase over the previous year. 
Coupled with our MILCON spending, the FSRM budget will enable our 
Infrastructure Investment Strategy to provide adaptive infrastructure 
that assures combat readiness and lethality. The fiscal year 2020 
President's Budget request includes $4.1 billion in funding for Air 
Force FSRM, a 40 percent increase in funding over the fiscal year 2019 
President's Budget request.
    The Air Force measures FSRM investment as a percentage of plant 
replacement value (PRV), which is the estimated cost to design and 
construct replacement facilities, utilities, and infrastructure to meet 
modern standards. fiscal year 2019 represented a low point for FSRM 
spending, reducing our infrastructure investment level to 1.5 percent 
of PRV. This investment level fell significantly below the Air Force 
minimum target of 2 percent and the industry standard of 4-6 percent. 
In fiscal year 2020, the Air Force will begin a substantial 
infrastructure investment increase to restore the health of our 
installations. The fiscal year 2020 President's Budget invests in FSRM 
at 2 percent of PRV, which represents a marked increase from last year. 
This correction sets the stage for consistent, stable, and predictable 
funding for Air Force installations and underpins the readiness and 
lethality those installations provide in support of the National 
Defense Strategy.
                                housing
    Ready and resilient Airmen are a critical component of a lethal, 
powerful Air Force. The Air Force remains committed to providing Airmen 
and their families with quality housing and a sense of community on our 
installations. To better understand the scope of potential health and 
safety problems in our housing inventory, the Secretary and Chief of 
Staff of the Air Force directed a 100 percent review of our homes. The 
initial results are driving immediate fixes and will guide long term 
actions to ensure our families are living in healthy and safe homes.
    The fiscal year 2020 President's Budget seeks $398.6 million for 
both military family housing construction and military family housing 
operations and maintenance. These funds will support our continued 
focus on eliminating inadequate housing from our inventory and 
correcting health and safety deficiencies.
    Our military family housing construction request of $103.6 million 
will fund construction of 76 homes and supporting neighborhood 
infrastructure at Spangdahlem Air Base, Germany; whole house 
improvement of 12 government-owned homes on Yokota Air Base, Japan; and 
whole house improvement of 29 government-owned historic homes at 
Wright-Patterson Air Force Base, Ohio. Our military family housing 
operations and maintenance request of $295 million will fund efforts to 
sustain, improve and modernize our government-owned inventory of 
approximately 15,200 family housing units. Combined, these funds will 
ensure we continue to support the housing needs of Airmen, their 
families, and our Army, Navy and Marine Corps teammates housed in our 
government-owned inventory.
    In 2013, the Air Force met our goal of privatizing family housing 
at all stateside locations, including Alaska and Hawaii, through 32 
housing projects at 63 installations with an end-state of 53,237 homes. 
Our focus in the United States is now on the long-term oversight of 
this portfolio of privatized homes.
    We are also committed to ensuring unaccompanied Airmen are provided 
quality housing on our dormitory campuses. Funded out of the Air Force 
FSRM account, our investment strategy for dormitories focuses on 
restoration and modernization of these facilities in their existing 
configurations. This strategy will meet the Department of Defense goal 
of 90 percent adequate dormitory rooms for permanent party 
unaccompanied Airmen and reduce the requirement for replacement 
construction. This enables us to focus MILCON funds on modern, formal 
training facilities for our newly recruited Airmen, such as the Airman 
Training Center at Joint Base San Antonio, Texas included in the fiscal 
year 2020 President's Budget.
                               conclusion
    Prior years' fiscal challenges have led the Air Force to accept 
managed risk in infrastructure. The fiscal year 2020 President's Budget 
request increases infrastructure investment to strengthen the Air 
Force's global network of installations, focusing on innovative, cost-
effective installation management and facility sustainment, 
restoration, and modernization. The military construction portion of 
the budget will support combatant command priorities, new weapon system 
beddown, and aging facility recapitalization. The military family 
housing portion of the budget will sustain and improve our inventory of 
government-owned homes. Together, these investments will secure our 
global power projection platforms and provide safe communities for our 
Airmen and their families.
    In an era of great power competition, the Air Force must prioritize 
enabling a lethal force to compete and win in today's and tomorrow's 
fights. The fiscal year 2020 President's Budget request prioritizes 
investment in the ready and resilient Airmen and installations that our 
nation's high- end fights demand.

    Senator Boozman. Thank you.
    General Coglianese, you testified that over the past 6 
months, the Marine Corps has dedicated a significant amount of 
resources to hurricane recovery for installations at Camp 
Lejeune, New River, Cherry Point, and Albany, all of which have 
come from within current funding levels. What--I guess the 
question really--or two or three things. What impacts are being 
felt across the Marine Corps due to cash flowing recovery 
efforts for hurricanes Florence and Michael? So, the cash flow 
situation. And then also, what are the operational impacts as a 
result? And then, finally, what impact will those risks have on 
short-term and long-term funding requirements?
    General Coglianese. Yes, Chairman, thanks for the question.
    Cash flow is seriously impacting the rest of the Marine 
Corps. So by putting the--we had to stop the bleeding and make 
the repairs. If you fly over Camp Lejeune or New River today, 
it will look like blue tarps from the sky. So we patched it. We 
stopped the bleeding. We did our due diligence, 31 military 
construction projects that are ready to go as far as 1391. We 
do need PD to further refine those projects.
    What we basically did is, basically, the idea to stop the 
money going from the west coast and the Pacific and flowed it 
all to Camp Lejeune. So there is projects that are health and 
safety issues--runway repairs, gas line repairs in Camp 
Lejeune--they all basically came to a stop to do the right 
thing to help Camp Lejeune and the east coast. But unless we 
get additional money, those projects that are critical projects 
and are not ``like to have'' projects, we will not be able to 
restart.
    We have several bids in third and fourth quarter that will 
expire for the rest of the region. So that is impacting the 
entire Marine Corps.
    Operations, I think we made kind of a quick recovery down 
in Camp Lejeune. But if I can just name a couple kind of 
anecdotal stories. There is a control tower, range tower, at 
Cherry Point that controls all of the airspace for the ranges. 
That has been decimated. So those people now are working in a 
makeshift facility. So that has an impact.
    You have young Marines who work on aircraft, and now they 
have to be moved into another hangar and doubled up. Aviation 
maintenance is critical, and now that is going to affect 
aviation maintenance just because it affects the quality of 
life of the Marines.
    And then if you just kind of take the overall quality of 
life of the Marines, sailors, and families. If you have to PCS 
to Camp Lejeune, you are away from your family plenty of times 
because of war or deployments. If you have to now leave them at 
Camp Pendleton to go there because of shortage of housing and 
such, that just has greater impacts or long-term impacts, I 
think, on the health of the Corps and retention and things like 
that. And that is just few of many, many stories.
    If I could just leave you one more. There is a building in 
Cherry Point that all of our counselors work out of for family 
counseling, substance abuse, and all. And that pretty much was 
decimated, and now we have counselors shoved in all different 
nooks and crannies around Cherry Point. And what is happening, 
people are not going to counseling because those services are 
not readily available. So those kind of things are just 
anecdotal stories, sir.
    Senator Boozman. Very good.
    General Allen, a similar question. You are suffering the 
same thing. Can you tell us how that is affecting you as far as 
self-financing, trying to self-finance as we go forward?
    General Allen. Thank you, Yes, sir. Understand. First, let 
me thank the subcommittee for the reprogramming request that 
you all passed. General Coglianese mentioned it in his 
statement. But for the Air Force, that was $200 million in O&M, 
which is very helpful this fiscal year 2019.
    Our requirement at Tyndall for O&M is $750 million in 
fiscal year 2019. Five hundred fifty million dollars of that 
has already been cash flowed from other places where the O&M 
was programmed. And on top of that, we need $150 million in 
MILCON planning and design to be ready for the MILCON rebuild 
that will be ready in fiscal year 2020.
    So that is the magnitude of what we are dealing with at 
Tyndall. If you factor in where we think we may be with Offutt 
as a result of the flooding on the Missouri River here in the 
last month that number could grow to over $1 billion total that 
we need to be looking at cash flowing.
    So without an additional relief this fiscal year, our 
comptroller has put together a proposal for our Secretary that 
essentially involves a triage of how we manage O&M to get us 
through the rest of the fiscal year. So to your question, if we 
have to invoke that triage plan, we will have to really stop 
new recovery activity at Tyndall, probably in the May 
timeframe. In the Offutt timeframe, we will do the same in 
recovery or I am sorry, at Offutt Air Force Base, we will do 
the same in recovery there to slow down that recovery.
    In addition, about $270 million of O&M FSRM projects that 
won't be awarded until after the first of May will just be 
deferred into the next fiscal year. So that is about 62 
projects. And then also our weapons system sustainment 
accounts, the accounts that we use to maintain airplanes, will 
be impacted, as will flying hours later in the fiscal year.
    So just an idea of some of the impacts that are resulting 
from the cash flow.
    Senator Boozman. Thank you.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Secretary McMahon, I want to start with this $7.2 billion, 
and I want to make sure that we have at least a similar 
understanding of what is being asked for. Here is the way that 
I understand it, just in colloquial terms. If we could go as 
quickly as possible, that would be great.
    The first $3.6 billion is essentially backfilling. And the 
second $3.6 billion is sort of forward funding, running the 
same play in the next fiscal year. Is that about right?
    Mr. McMahon. Yes, sir, with $2 billion going toward 
hurricane relief as well. Out of the 9.2----
    Senator Schatz. Out of the 7-point. Okay, so sorry. $3.6 
billion backfill, $3.6 billion forward funding, running the 
same play, and then $2 billion for hurricane relief. Okay.
    Mr. McMahon. Yes, Senator, that is correct.
    Senator Schatz. Okay. So Acting Secretary Shanahan has 
asked Chairman Dunford to give his military advice on projects 
that can be cut for border wall construction. So who else 
provides input into this process?
    Mr. McMahon. Senator, first, rather than ``cut,'' I would 
use the word ``deferred.'' We have committed since day one on 
this, no projects will be cut. It is simply deferring. We have 
got a process defined that no project that is scheduled to be 
awarded in fiscal year 2019 will not be impacted.
    Senator Schatz. Okay, rather than quibble with you about 
language, who else is providing input into what will be moved 
to the right? And in my view, if it moves to the right, it may 
fall off, but we will have that conversation offline because it 
is longer.
    How does this process work? Who gives the input--and I will 
give you a couple of questions. Who gives the input? Are the 
service secretaries and chiefs developing prioritized lists to 
give to the Chairman of the Joint Chiefs? And does this process 
provide sort of for a pass back?
    In other words, can all of the people at this panel argue, 
I think persuasively, that there is just no room, for instance, 
in the Air Force MILCON budget to free up $100 million or $700 
million, or whatever it may be, for the wall, given natural 
disasters, deployments, urgent needs? You paint a picture of 
pretty urgent needs and some unexpected expenses. And so the 
question is, are you in a position, are these individuals in a 
position to push back?
    Mr. McMahon. Senator, to the first part of your question, 
the Chairman of the Joint Chiefs provides independent advice to 
the Acting Secretary as to whether or not there are any 
projects that were presented by the Department of Homeland 
Security meet the requirements that we can utilize 2008--2808 
funding.
    Senator Schatz. Does the information flow from the service 
branches to Chairman Dunford?
    Mr. McMahon. That is a determination looking at the list of 
projects that were provided by DHS back to the Department of 
Defense. It does not talk about specific MILCON projects. To 
that part of the question, each of the services and a list of 
all of the unawarded projects have been provided to the 
Congress. Within that list, they now have the opportunity, if 
there is a requirement--no requirement has been defined yet.
    Senator Schatz. ``They'' meaning the services?
    Mr. McMahon. The services.
    Senator Schatz. Okay.
    Mr. McMahon. Have an integral play--the four ladies and 
gentlemen to my left are the ones that initiate that process, 
working through their service secretaries.
    Senator Schatz. But do they get, like, do they get a target 
dollar amount to go and find? Or is it their discretion to say, 
listen, I can only free up $28 million, or are they ordered 
each to find some dollar amount, and how does that work?
    Mr. McMahon. Senator, beyond, at this point in time, that 
is a level of detail that, quite frankly, we are not down to 
yet as to what projects across the four services would actually 
be tagged because today there is no requirement because the 
Chairman of the Joint Chiefs has yet to define if any of the 
projects presented meet the minimum requirements to be funded 
under 2808.
    Senator Schatz. Okay, I see. So that is a fair answer. We 
are not there yet because you have the Chairman of the Joint 
Chiefs has to interact with the Department of Homeland Security 
and so on, pursuant to the statute. I get it. You can just see 
how this puts us in at a minimum, an awkward position.
    But to put a finer point on it, it is quite difficult to 
fund additional requirements, right? And to do what we normally 
do, which is to listen to you, to trust you, and then to lay 
down money for those needs when there is 9 odd billion dollars 
that is sort of not just outside of the regular order, but 
outside of our ability to even see it, right, at this point. 
And so this creates great difficulty for the committee to do 
its job in the normal fashion.
    And I understand, you know, you did not initiate this 
process. You may not even like this process. I don't want you 
to comment on that. But it does create difficultly when you are 
talking about bases and installations that have been 
essentially destroyed, and you need help.
    My view is, I am staring at this $7.2 billion and say, 
well, there is some money. Right? And I would argue, especially 
from this committee, that that $7.2 billion ought to be used 
for these needs and not the wall. And if we decide, as a 
Congress, to fund the wall, we should do it the old-fashioned 
way, we should fund a wall. We don't want to fund MILCON to 
some high amount and then let the money get raided because no 
one wants to admit that they are funding a wall.
    I will come back for a second round.
    Senator Boozman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    General Bingham, I want to address my first question to 
you. And to the three of you who will be retiring, just let me 
add my thanks and appreciation for your years of service.
    This is regards to infrastructure readiness and the 
initiative that is being pursued in Alaska called the Alaska 
Infrastructure Readiness Initiative. This is to look at urgent 
unfunded needs, and the senior leaders in U.S. Army Pacific are 
working this, working a similar initiative in Hawaii. And what 
we are looking at in Alaska are things like indoor heated 
storage and maintenance facilities for the Stryker, a need for 
adequate indoor facilities to conduct physical training in cold 
conditions, improvements to JPARC to improve the training.
    Can you speak to me just very quickly here about whether or 
not we are on track with this initiative to really help advance 
what the senior leadership team is looking to and how we can 
address these unfunded needs in infrastructure?
    General Bingham. Thank you, Senator Murkowski. I appreciate 
your question.
    I can tell you that we are aware of several of those 
projects, future projects are programmed for Alaska. We are 
looking forward to working with General Brown and the USARPAC 
team on what he will bring into the building as it relates to 
that initiative you described.
    Senator Murkowski. And so do you think this is something 
that there can be an agreement specific to this initiative, not 
unlike what I understand is being pursued in Hawaii now?
    General Bingham. I am not the decisionmaking authority on 
that, your question. But we will certainly take that back to 
the building, as you have asked me.
    Senator Murkowski. Well, I appreciate that. And as you do 
that, I would like you to look at one of these issues that have 
just raised, which is this warm storage for the Stryker 
vehicles there at Fort Wainwright. We have got a situation 
where we just don't have warm storage. You have got 7-month 
winter season. It takes about 72 hours of winter maintenance 
before they can basically get warmed up to be ready to respond, 
which is a challenge most notably.
    So I guess the question is, is whether or not Congress 
might be able to fund a temporary solution through the Army 
procurement accounts in 2020 and whether or not we can work 
with you to address this in the short term before we can get to 
that longer-term solution.
    General Bingham. Again, thank you so much for your 
question. Though I am not the decisionmaking authority, we 
certainly recognize the need, and I look forward to working 
with you and your team on the issue that you just raised.
    Senator Murkowski. Well, I appreciate that. It is a 
priority for us up north. So thank you for that.
    This is a question for you, Vice Admiral Smith and General 
Coglianese. Earlier this morning in the Armed Services 
Committee, Senator Sullivan was able to pose a question to the 
Secretary of the Navy and I also understand to the Commandant. 
This relates to the prospects of ADAC as an opportunity for 
Marine training activities.
    Secretary Spencer was up in the State with Senator Sullivan 
last year, was very interested in helping to facilitate 
operations in this area. ADAC, as you all know, has been 
relatively quiet in many decades. But the potential there for 
training opportunities and also with existing infrastructure, I 
think, is quite promising.
    Do either one of you have anything that you would care to 
add to what was already discussed this morning? And I guess 
more specific to this committee is, what would the funding look 
like for us as the Appropriations Committee to consider what a 
training opportunity for the Marines out in ADAC would be?
    General Coglianese. Senator, thanks for the question.
    I wish I listened to the testimony, I would be better 
prepared for what the Commandant said. I am not sure what he 
said.
    Senator Murkowski. He was all positive and all good. He 
said just bring it on.
    General Coglianese. Well, whatever he said, I double down.
    Senator Murkowski. There you go.
    General Coglianese. But I would tell you that the 
Commandant, in every discussion he has about our facilities or 
wherever we are located, it is always about training. Whether 
it is Hawaii or in the Pacific or everywhere we are at, I mean, 
every day there is a question about training. If we cannot 
train, there is no sense in us being there. And I know he is 
very open-minded, he has talked about Alaska and the 
opportunities, part of Pacific, obviously.
    And so, he is definitely open-minded and talked about it. I 
have no idea about cost or funding or what the requirement 
would be. But I know the Commandant is definitely open-minded 
about using Alaska and training in Alaska.
    Senator Murkowski. Vice Admiral Smith.
    Admiral Smith. Yes, ma'am. Thank you, Senator.
    I know that we are looking at what is the art of the 
possible up in Alaska. ADAC is one of those things. There is no 
decisions yet, but again, we are seeing what the art of the 
possible is. Because, to the general's comment, where we can do 
training and where we can leverage opportunity for increased 
and advanced training, especially where we are in great power 
competition and what is up there in Alaska, we are going to go 
see what we can do, ma'am.
    Senator Murkowski. Well, we would certainly welcome you up 
to get more eyes on the situation, but we think that we have a 
pretty good opportunity again for training areas as well as 
infrastructure there.
    Thank you, Mr. Chairman.
    Senator Boozman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman, and thank you, all 
of you, for being here and very much appreciate your service.
    The Department of Defense, the New Mexico congressional 
delegation, and the Appropriations Committee worked hard to get 
several MILCON projects that would support national security 
needs, including an information systems facility at White Sands 
Missile Range. This project will enable White Sands to continue 
the missile defense, hypersonics, and other tests that are 
vital to national security.
    Furthermore, military construction projects like this one 
have already been approved by Congress but are at risk of being 
sacrificed for the President's ill-advised border wall. These 
MILCON projects were all requested in your budgets. So I think 
we can safely assume you support them and believe they are 
important to military needs. Is that correct? Is it just a 
yes--it looks like everybody is nodding. So I am going to say 
for the record, we are all on yes there.
    And I have introduced legislation that would reiterate and 
make crystal clear that we intended these funds to go to these 
projects and prevent MILCON funding from being raided for a 
southern border wall. Would anyone here oppose Congress 
including language like that on future appropriations bills to 
protect MILCON project funding from being taken? Mr. McMahon?
    Mr. McMahon. Senator, clearly, every project that comes 
before this subcommittee is important to the services and 
important to the Department. It is a matter of priorities 
within the Department of Defense through the President, who is 
the commander-in-chief, of how best to utilize that based upon 
the actions of the Senate and the Congress.
    Senator Udall. Yes, well, I just hope, and I think this was 
said by several other members earlier, that the advocates here 
for the military know and understand, the career people here, 
how important and how hard you have worked over the years to 
devise a process for MILCON to go forward. And now to have what 
you were really preventing, a lot of that was the politics of 
it, of trying to get it in to be a solid process. And now we 
have the politics of the White House in the middle of this.
    So I just hope all of you, when you get asked, as Senator 
Schatz was talking about, what you feel ought to go forward, 
that you push back. I realize what you can and can't say here, 
but it is very important for you to speak up in terms of what 
is a national security need and what isn't.
    Let me ask about hypersonic testing. I know General Bingham 
knows this well. This hypersonic testing at White Sands Missile 
Range, including a point-to-point testing envisioned by the Air 
Force for transportation and space research and development 
based out of the Space Rapid Capabilities Office at Kirtland 
Air Force Base, is an important next step toward developing a 
hypersonic capability. Is the Air Force or Army considering 
future MILCON at White Sands to support these needs?
    General Bingham. Well, thank you for the question, Senator 
Udall.
    And as you know, having commanded White Sands Missile Range 
for nearly 2 years, it is absolutely a national treasure. I 
will tell you that White Sands is playing a key role in 
implementing hypersonic test flight. We have been actively 
engaged in OSD's Test Resource Management Center to explore 
long-range flight corridors, and I suspect that will continue 
into the near future.
    Senator Udall. General Allen, anything from the Air Force 
perspective on that?
    General Allen. Senator, I will just say I don't have any 
hypersonic-related MILCON in the Future Years Defense Plan 
right now, but that very well could change in the future.
    Senator Udall. Great, thank you.
    Mr. McMahon. Senator, if I could add one comment to that?
    Senator Udall. Yes, please go ahead.
    Mr. McMahon. One of the things that we recognize is the 
potential encroachment in the northern areas above White Sands. 
We have taken action, working with local developers and some of 
the power companies, to ensure to the best of our ability that 
that encroachment will not take place because we recognize it 
to be a national treasure.
    Senator Udall. Yes, and we are working on that with you, I 
believe.
    Mr. McMahon. Yes, sir. Thank you.
    Senator Udall. Thank you very much. You know, military 
families in New Mexico live in privatized military housing, 
have communicated concerns about the dilapidated conditions and 
health issues in their homes, which include health issues like 
lead paint, black mold, pesticide use. I understand, responding 
to this, that you all or the DoD is working to propose a tenant 
bill of rights. What will this bill of rights entail, and how 
will it address the needs of military families?
    Mr. McMahon. Senator, if I might for my colleagues? They 
are intimately involved with this, as are their Assistant 
Secretaries with my staff. Very simply, what we are trying to 
do is ensure that what has occurred over the last couple of 
years does not happen again. It gives a greater voice to our 
residents. The bill of rights specifically talks about 
protecting them, providing them with an understanding of what 
they should expect from our privatized partners, as well as a 
methodology by which if they have an issue, that issue can be 
resolved.
    In general terms, that is what we are looking at. But 
provides in clear guidance, oh, by the way that our private 
partners have agreed to. And tomorrow, I will meet with many of 
the families organizations to make sure they are comfortable 
with that as well.
    Senator Udall. Yes. And when you visit with these young 
families and how dedicated they are to the service to the 
country, it is just so discouraging and disheartening to hear 
them describe some of the conditions in this housing. So I hope 
that we can all get on the same page and make sure that we are 
going to invest and make sure this does not happen again.
    Thank you very much, Mr. Chairman.
    Senator Boozman. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    And thank all of you for your service, but particularly the 
three of you who will be retiring, we are very grateful.
    Admiral Smith, speaking of national treasures, another 
national treasure is in the State of Maine. It is the 
Portsmouth Naval Shipyard, as I am sure you know. It plays a 
crucial role in ensuring that the Navy's submarines are able to 
accomplish their missions worldwide.
    Last year, the Navy requested and Congress appropriated 
$162 million for three very important military construction 
projects at the shipyard, including the vital Drydock Number 
One Super Flood Basin improvement, a portal crane rail 
extension project, and the replacement of a consolidated 
warehouse.
    Completing these projects on schedule will ensure that the 
shipyard can dock both Los Angeles Class and Virginia Class 
submarines and execute Los Angeles Class service life 
extensions by fiscal year 2021. These projects now have award 
dates before September 30th. Do you anticipate executing these 
projects on schedule?
    Admiral Smith. Thank you, Senator. I appreciate that.
    And yes, that shipyard is phenomenal. It does great work up 
there. As you know, I have had the opportunity to visit on more 
than one occasion, and it is a great workforce and a great team 
up there. At this point, we are on track to award those three 
MILCONs, ma'am.
    Senator Collins. Thank you. That will come as a great 
relief, and it is so important to the Navy as well.
    I want to follow up on the Senator from New Mexico's 
concerns about the reports of substandard housing for our 
military families. I have been very concerned about a report 
that was published in Seacoastonline.com talking about black 
mold, vermin, and lead paint at a particular housing, apartment 
building really, called Admiralty Village, which houses 200 
military families who work at the Portsmouth Naval Shipyard and 
in other military capacities in the Seacoast region.
    The descriptions are very troubling. I don't think it is 
fair to ask you to respond on the fly to the specific 
allegations in this story. I would note that the Portsmouth 
Naval Shipyard recently held a town hall and offered all 
residents an inspection, and that is certainly a good first 
step. What I do want to do is to provide you with a copy of 
this story, which has much more in-depth reporting and to ask 
you to respond.
    This is an example of an apartment building that I believe 
was originally built by the Navy but then privatized. And it 
just has not been kept up to the standards that all of us would 
want for our military families.
    So I will submit this to you as part of a record question, 
with the permission of the chairman, and ask you to 
specifically respond.
    Admiral Smith. Yes, ma'am. Absolutely.
    Obviously, the care and the feeding of our sailors and 
their families is of the utmost importance. We have learned a 
lot here, as we all have stated. I have not seen that specific 
article, and I look forward to seeing it.
    And the more information we can get on where we are on 
housing in reality and from different perspectives to enable us 
to get after this aggressively is more than welcome. So I look 
forward to reading that and getting back to you, ma'am.
    Senator Collins. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Boozman. Thank you.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman and Ranking Member 
Schatz.
    I am concerned that the DoD is not addressing important 
readiness issues for no other reason than the President has 
directed billions of dollars from our defense budget to be used 
for a wall that he promised Mexico would pay for.
    General Bingham, your 2020 budget includes $211 million 
reserve fund to address the dangers within military housing. 
And if there is a need for this spending, I don't understand 
why it should wait a year unless it is because the Army can't 
afford it because of the funds that are being spent on the 
wall.
    And Admiral Smith, we have heard estimates that the 
shortfall in ship depot maintenance in this year alone is in 
the hundreds of millions of dollars and perhaps approaching $1 
billion. And it doesn't seem clear if there is a strategy to 
fund these needed repairs in light of how much is being spent 
on the wall.
    General Coglianese, the Marine Corps reports that there is 
a $451 million shortfall to address hurricane damage at Camp 
Lejeune and Cherry Point. A reprogramming could solve this 
shortfall in a matter of days, and it is why General Neller 
wrote his memo raising alarms about the readiness and fiscal 
solvency of the Marine Corps. The only reason I can think of 
for not providing the Marine Corps with a second reprogramming 
is because of the amount of funding being provided for the 
wall.
    And General Allen, the Air Force reports an $899 million 
shortfall this year for repair of Tyndall and Offutt Air Force 
Bases. And again, it seems like this could be quickly addressed 
by a reprogramming, except that billions in defense funds are 
being spent on the wall.
    So Congress has not been presented with a request from the 
President to fund the disaster costs that are burdening the 
Marine Corps and the Air Force. Reprogramming dollars are being 
prioritized for the wall and not your readiness concerns. My 
question for the panel is simple, what is your plan for dealing 
with these costs, when they are clearly taking a backseat to 
the wall?
    Mr. McMahon. Senator, if I might start, and then I will let 
my partners respond as they need to. First, many of the things 
that you have identified here are significant issues 
exacerbated by the weather issues that we had last year with 
both at Tyndall and Camp Lejeune. The challenges that we face 
in many cases are O&M issues viz., military construction 
funding issues.
    And so, part of the effort with the reprogramming that we 
went through was to resolve that. That resolves in part some of 
the issue for fiscal year 2019, but it clearly, as you have 
heard in testimony thus far today, does not take care of all of 
the issues that we will face in 2019. I am not privy at this 
point to know whether or not the Department through the 
President will submit a supplemental, but clearly, there is a 
requirement out there, as is there across the board for 
disaster relief.
    With regards to military construction, I think there is a 
recognition within the Department that there is a need for 
additional dollars to be able to both support the wall and 
other issues. The approach that we have taken, coming before 
the Congress, is an attempt to recognize that there is a near-
term requirement as well as a back funding that would be 
requested. And I think the appropriations the President's 
request that came forward recognizes that we can't do without 
that $3.6 billion that we requested and that you approved and 
authorized in 2019, but we are requesting that it be back 
funded in 2020.
    Senator Baldwin. Does anyone else wish to make any 
comments? If not, thank you, Mr. Chair.
    Senator Boozman. Our distinguished Vice Chairman of 
Appropriations, Senator Leahy.
    Senator Leahy. Thank you very much, Mr. Chairman.
    I have also had a concern about money that is being 
transferred for the border wall, especially as we have had a 
number of votes on this. As you know when the Congress voted 
overwhelmingly to give $1.6 billion for the wall, the President 
vetoed that bill saying it was not enough, closed down the 
Government for 35 days, cost us tens of billions of dollars, 
but then signed the bill for $1.3 billion.
    I couldn't figure that out, why that happens. There was a 
congressional vote on what it was, Republicans and Democrats. 
Now I worry that money is being taken to a backdoor way to 
build the wall.
    With a son who trained at Camp Lejeune, and I look at the 
damage to Camp Lejeune, and I have talked with him and with 
friends of mine who trained there also. I might ask, General, 
do you have enough money to put Camp Lejeune back where it 
should be?
    General Coglianese. Senator, good seeing you again.
    No, sir. We need the $451 million, as the Commandant has 
testified this year for fiscal year 2019 in O&M money, and that 
is just for repairing things. We have asked for $2 billion in 
military construction for 31 projects. And that is 31 military 
construction projects that replaces actually 133 buildings at 
Camp Lejeune, New River, and Cherry Point.
    Senator Leahy. I know that area well. I emphasize it was my 
son who trained there. I didn't train there. I don't think I 
ever would have made it through, even with my Italian half.
    Secretary McMahon, on March 7th, I joined Senator Schatz 
and Durbin, Udall, others, Democratic members of the 
subcommittee, to a letter to Acting Secretary Shanahan asking 
that he provide a list of projects deemed less important than 
building a wall on the southern border that could be put at 
risk in order to pay for the wall.
    We have not gotten a response. When will we be told which 
projects will be deferred or canceled in order to fund the wall 
and why they are less important?
    Mr. McMahon. Senator, where we are in the process today is 
that the next step is for the Acting Secretary to request 
feedback from the Chairman of the Joint Chiefs as to whether 
any of the efforts being requested do, in fact, meet the 
criteria necessary for 2808 funding. Once we understand whether 
or not there is a requirement that can be supported, we will 
work with the services to have them identify which projects 
could be deferred.
    We have provided some initial guidance--
    Senator Leahy. Which projects could be deferred because 
they are less important than the wall?
    Mr. McMahon. Right now, today, Senator, what we have done 
is identify that any project that is scheduled to be awarded in 
fiscal year 2019 is taken off of that list, and a project that 
is scheduled not to be awarded until fiscal year 2020 would be 
one of those considered. Each of the services will look at that 
criteria. But the intent and the belief being that with the 
support of the Congress, that funding would be backfilled for 
any project that would be--
    Senator Leahy. But that does--as you know, that doesn't 
really answer my question. We are told this is beginning right 
now. And that we have to take this money right now to build 
this wall because of the pressure on the United States. You 
don't have a list of what can be cancelled right now to pay for 
the wall. Is that correct?
    Mr. McMahon. That is correct, Senator.
    Senator Leahy. Thank you. And I appreciate that.
    I was encouraged to see the Army include a replacement for 
the Mountain Warfare School within the unfunded priorities 
list. The current facility is nearly 40 years old. And I will 
submit some questions to the record on this. Obviously, I will 
support a replacement.
    And as the Army undertakes a long-term effort to relocate 
and rebuild National Guard Readiness Centers, let us make 
sure--and I know General Bingham, I know you have been 
concerned about this--that we are making sure that they meet 
all standards regardless of gender, that they be incorporated 
in their design and readiness. And will you assure me of that, 
please?
    General Bingham. I can. Thank you.
    Senator Leahy. Thank you.
    Mr. Chairman, thank you for letting me step in. I 
apologize. It is a busy day in the Appropriations Committee. We 
are also holding a hearing with the Secretary of State just up 
the hall on his budget. But thank you all. I know most of you 
well and thank you for being here.
    Senator Boozman. Thank you.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    I can tell you in Montana we are very proud of the men and 
women of the 341st Missile Wing. They work very hard each day 
to maintain our nuclear arsenal. Those ICBMs, make sure at the 
highest state of readiness. I want to be sure from the onset 
that we aren't doing them a disservice with hyperbole and loose 
rhetoric about crumbling infrastructure for perhaps political 
purposes.
    Secretary McMahon, if our missileers got the call tonight, 
are you confident their systems will perform as expected?
    Mr. McMahon. Senator, after 34 years in the United States 
Air Force, I know they are.
    Senator Daines. Thank you. I am confident as well. And 
would you agree that our military installations are improving 
today as a result of increased investment in defense and a 
renewed focus by this administration on the threats facing our 
Nation?
    Mr. McMahon. Senator, they are. We have a long ways to go. 
There is still risk, but we are making the effort, and over the 
last couple of years, we have done very well in being able to 
reduce that risk.
    Senator Daines. For fiscal year 2020, the President has 
requested $235 million to update the structures where nuclear 
munitions are stored and maintained at Malmstrom Air Force 
Base. I feel confident the White House and the Senate both 
understand the value of maintaining a credible nuclear 
deterrent, but some of our colleagues in the House seem a bit 
more naive or perhaps just simply uncooperative.
    General Allen, how damaging would a continuing resolution 
be to the Air Force's modernization strategy if the House and 
the Senate can't reach an agreement by October 1st?
    General Allen. Thank you, Senator.
    Well, it delays our recovery. So in my opening remarks, I 
talked about this fiscal year 2020 budget request would be a 
considerable increase over fiscal year 2019. So absent that 
fiscal year 2020 appropriation, we won't have that considerable 
increase in funding to begin that recovery--to include the $235 
million WGF facility at Malmstrom.
    Senator Daines. Thank you.
    And I know the Air Force is working diligently on 
Malmstrom's missile maintenance facility, which was slightly 
delayed. Are we back on track now to have a contract in place 
this summer?
    General Allen. Yes, Senator. We were working diligently to 
get an above-threshold reprogramming request through, and I 
understand that that came to the Hill today. We are on target 
for a June of 2019 award for that project.
    Senator Daines. Great. Thank you.
    Last year, I was pleased this committee was able to 
accelerate the much-needed ramp expansion at the Great Falls 
International Airport, where our Guard C-130s operate. I 
understand the design is currently about 70 percent complete.
    General Allen, by all indications, this project appears to 
be moving along and should be completed on schedule. Would you 
agree with that assessment?
    General Allen. Yes, Senator. We are looking at September 
for award.
    Senator Daines. Thank you.
    And with the natural disasters we saw in 2018, whether it 
is Montana wildfires to Gulf Coast hurricanes, how can Congress 
help the Air Force hedge against the risk of unforeseen 
expenses?
    General Allen. Sir, I would say right now our O&M 
requirements in fiscal year 2019 are our highest priority in 
general recovering from severe weather. Is that answering your 
question?
    Senator Daines. It does, yes. Thank you.
    Mr. McMahon. Senator, may I pile on for just a second to 
that question?
    Senator Daines. Yes.
    Mr. McMahon. I think one of the most important issues for 
the Department, as well as for our Congress, is how do we 
create resilient installations? We have talked a little bit 
about weather. We have talked a little bit about a climate, but 
it is a much broader issue than that. That gets into cyber, it 
gets into water, it gets into energy. And I think with the 
Congress, I would encourage us together to figure out how we 
take a more holistic approach to ensuring that our 
installations are fully resilient.
    Thank you for letting me.
    Senator Daines. You bet. Thank you. Thanks for that 
comment.
    In summary, and General Allen, I appreciate your time last 
week. I was glad with discussing the readiness and the quality 
of life issues facing our airmen. As you know, Montana can get 
kind of cold there in the wintertime. We had some 40 degree 
below kind of weather this past winter. To maintain the Air 
Force's physical standards in those conditions, you have got to 
have adequate facilities.
    For years, the indoor fitness center there at Malmstrom Air 
Force Base has lagged behind other northern-tier bases, but 
there never seems to be enough funding to bring it up to an 
acceptable standard. The fitness center is a priority for the 
military serving in Malmstrom. General Allen, I ask that you 
continue to work with us to get Malmstrom the improvements it 
needs and make this a higher priority in the Air Force.
    General Allen. Senator, based on our conversation, I asked 
my staff to reach out to the installation, which they have 
done. We will continue to work with the Wing, and if it will 
help you, we will be happy to come over and spend more time 
with your staff to talk about that project.
    Senator Daines. Thank you, General Allen.
    Thank you, Mr. Chairman.
    Senator Boozman. Thank you.
    Now we have talked about some, lots of really important 
things today. A couple of members have already brought it up, 
but I think maybe one of the most important things that we 
talked about was the privatized housing and the problems that 
we have had.
    And so what we have got this challenge. I would like to 
know, and we will start with you, General Bingham. I would like 
to know if this has changed the service's attitude as far as 
who is responsible. You know, when somebody complains, what are 
we going to do? Who in the past, it seems like we have maybe 
not been as good as we should be. Tell me how it has changed 
the services.
    General Bingham. And thank you, Chairman Boozman, for your 
question.
    I will tell you, first and foremost, we want to assure our 
service members and their families that we absolutely care for 
their well-being. We want them to feel safe and know that they 
are in safe housing. And so to that end, we are sparing no 
effort to make sure that this partnership, called Residential 
Communities Initiative, works as it was intended to do.
    To that end, we are putting commanders and leaders back in 
the process associated with hearing the voice of our service 
member and families as residents inside of that. And we know 
that is important. It is not a one-time fire and forget. This 
is a continual process. And as I mentioned in my opening 
remarks, we want to make sure that we put in place processes 
and procedures that are enduring because our service members 
and their families so deserve all of that.
    And I think one of the major takeaways is really trying to 
recapture and re-garner the trust from our families and our 
service members. Because what makes a ready service member is 
making sure that he or she does not have to worry about their 
families. Housing is very important to them and to us as 
leaders. And we want to reassure them that we are trustworthy 
stewards of them and all that make them the ready service 
members that we aim for them to be.
    Thank you for your question.
    Senator Boozman. Anybody else got anything to add.
    Admiral Smith. Mr. Chairman, we are clearly in a better 
place because of PPV housing. Having said that, we also clearly 
took our eye off the ball. And we have a responsibility to our 
sailors and their families to make sure that if they are having 
issues we support them.
    As you know, the CNO directed a 100 percent contact of all 
our families to understand what their issues are and concerns. 
He addressed small unit leadership, our chief petty officers 
and our division officers, to know and advocate for their 
sailors. And when that doesn't work, the chain of command 
advocate for them.
    So you asked, has it changed? What is different? We have 
refocused, doubled down on our responsibilities to take care of 
our men and women, sir.
    Senator Boozman. Very good. Does the fiscal year 2020 
request include adequate funding to mitigate and address what 
we want to do with the issues? Mr. McMahon.
    Mr. McMahon. Senator, what I would tell you is that we are 
able to work some of the non-privatized housing issues. Quite 
frankly, one of the challenges that we face is an O&M shortfall 
and unfunded request requirement for additional manpower within 
our housing offices, which is one of the key issues that we 
identified as a root cause problem of where we are today. 
Support from the Congress for that funding I think would assist 
us to be able to get our housing offices back to where we would 
like them to be.
    Thank you for the question.
    Senator Boozman. Well, let us help you with that. I mean, 
we look as far as I am concerned, you are responsible for 
getting this fixed. And on the other hand, let us help. I think 
I can speak for the committee, this is something you heard from 
both sides. This is something that we are all very, very 
concerned about. So be sure and let us know how we can help so 
that we truly can fix this.
    Senator Tester.
    Senator Tester. Well, first of all, thanks. Thanks to you 
all for being here.
    And Mr. Chairman, I appreciate you taking some time so I 
could get back here. Thank you very much.
    I will be very, very quick because I think most of what I 
have in my portfolio to ask has already been asked, but this is 
a really important question for you, General Allen that I think 
Senator Daines touched upon. It deals with mission 
recapitalization, which I think we both can agree on that is 
very urgent, especially as it applies to our nuclear 
enterprise.
    And so I am glad to see that the weapon storage facility at 
Malmstrom is included in this budget request. It is a project 
that I have been advocating for that the base needs, that the 
airmen need at Malmstrom, and I can't wait for construction to 
begin. The question, as it applies to this budget, though, is I 
am concerned about possibly these dollars getting reprogrammed, 
creating a potential--another delay.
    For obvious reasons, and I know that many people have 
spoken about dollars taken out of the military budget to be 
used for a wall on the southern border, I think, quite frankly, 
that is a mistake. We are taking one security measure and 
making it weaker by trying to beef up another one. So I guess 
my question is, is can you assure me that these dollars will 
stay in the budget? That if the President asks for dollars that 
you will say, no, this is too important for our nuclear 
enterprise to put off any longer?
    General Allen. Senator, I can't give an assurance of what 
will happen should that project be appropriated. But I can 
assure you that I understand and advocate for its mission 
importance for all of the reasons that you said.
    Senator Tester. Well, I would just say that, and I know 
that the President is the commander-in-chief, and I know that 
there are rules that have to be put forth here. But I have been 
down at the southern border, and I have been at Malmstrom Air 
Force Base. And I understand what is going on relatively well 
on the southern border after spending 2 days down there. And I 
understand relatively well what is going on at Malmstrom Air 
Force Base.
    This facility has been on the books for a while now. You 
know that. I mean, what is more important than weapons storage? 
And this isn't talking about storing .22 rifles, this is 
nuclear weapons. And so, I would just say, do what you can do 
to push back to make sure these projects move forward. They are 
that important.
    General Allen. Yes, Senator, I agree. And it is a good 
project. It is a long time coming. It is pegged to the work we 
did at F.E. Warren for the same kind of a project. You know, 
site adapted for the conditions in Montana. We are very 
comfortable that it will be ready to go when the money comes.
    Senator Tester. Thank you. The only thing I would also ask 
you to do is hold those contractors' feet to the fire. I think 
we are building these in phases to save money, and it 
distresses me when the next one is going to cost more than the 
last one, not less.
    Thank you very much.
    Senator Boozman. Senator Schatz.
    Senator Schatz. Thank you.
    Secretary McMahon, on the $7.2 billion in particular, I 
understand where we are in the process. Do we have your 
commitment to keep us informed? Let us start with that.
    Mr. McMahon. Senator, as we move forward in the process, we 
will keep you informed at the different gates that we reach. If 
a project is selected to be deferred, that information will 
flow to the Senate and to the Congress as well.
    Senator Schatz. So there is sort of two ways to do this. 
First of all, I trust you. And so, I don't want to nail this 
down to every 10 days you write me a letter. But if we are not 
going to do sort of a time certain update, which I am 
comfortable with, then we have to be comfortable that if 
anything significant happens that is relevant to the 
jurisdiction of this committee, that you will not wait 2 or 3 
weeks to tell us. Because my sense of this is that the DHS and 
the Joint Chiefs piece of this is the rate limiting factor, and 
then after that, things may move relatively quickly.
    So if we are on a recess for a week and you just wait for 
the next, you know, oversight hearing, that does not count as 
keeping us informed. So do I have your commitment to keep us 
informed as we go along? Anytime anything significant happens 
and erring on the side of informing us, that you will keep us 
abreast of every significant step in this process?
    Mr. McMahon. Senator, what I would like to do is rather 
than just give an unqualified yes, is take that question for 
the record, go back and make sure that it is clear in all of 
our collective minds how best to communicate with the Congress 
to ensure that we are transparent and keep you informed. If I 
could do that, sir?
    Senator Schatz. I mean, I don't love that answer, I have to 
tell you. I think this isn't a gotcha. I am not saying give us 
a letter every Friday to tell you where you are at. I am just 
telling you that in terms of maintaining this working 
relationship, we ought to be informed if anything major 
happens. Now if something is classified or whatever, we can 
sort of deal with that. But it seems reasonable that you ought 
to be able to tell us what is happening as we go along.
    Mr. McMahon. Senator, what the short answer to your 
question is, yes, it is reasonable that we would do that. What 
I want to make sure is that what you think is significant and 
what the Department thinks is significant rather than to commit 
something that is beyond my ability.
    Senator Schatz. Fair enough. And this is why I trust you is 
because when you say yes, you want to be sure that you can 
follow through on this.
    A couple of other topics. Climate change, extreme weather, 
severe weather. We have clearly been hit in each of the 
services, and it is costing us a lot of money. So without sort 
of getting into a solution set, is it fair to say severe 
weather is costing the Department of Defense more money over 
the last couple of years than it was previously?
    And what ought we to do about that? I think you know a fair 
amount about resilience. I am not satisfied that as, say, 
General Allen has sort of immediate needs to get back up and 
running, that he has the time to develop a plan for a new Air 
Force Base that is resilient in the context of climate change. 
So how do we make adjustments on the fly? Because some of this, 
we can't do a 5-year plan, but still sort of meet our needs?
    Mr. McMahon. Senator, there is probably both a short-term 
and a long-term answer to your question. For example, at 
Tyndall Air Force Base, I know the Air Force has taken an 
approach that said what is it that we build long-term 
resilience into the installation to get it to where it needs to 
be based upon weather and climate and the impact that they have 
had? On a longer term, as we build new facilities, what we are 
looking at is an entirely different set of standards than what 
we have used in the past that say how do we ensure that there 
is resilience in the installations based upon the standards 
that we are using for actually building it?
    Senator Schatz. Are those standards written yet, or you are 
developing them?
    Mr. McMahon. In many cases, those are written. They exist 
today. In some cases, they are evolving as we move forward.
    Senator Schatz. Do they differ among the services?
    Mr. McMahon. I don't know the answer to that question. I 
think they are the same.
    General Coglianese. So, Senator, I would say that the lens 
we use probably now that is most significant is the mission 
assurance lens. So we do assessments. And the correlation and 
the relationship of power, water, key structures and 
facilities, the information, we have a good portion of that 
information.
    What we need to do, and what we are trying to do, is take 
action on that information. So understanding interdependencies 
and the relationships, and Florence taught us a lot. Whether it 
is a control tower that controls air for North Carolina or a 
power station that is a single feed or something like that to 
an installation, we realize what the interdependence are and we 
need to invest in those interdependence to make sure we had the 
resiliency to withstand whether it is natural disaster or cyber 
or DSCA type of event.
    Mr. McMahon. Senator, the only thing I would add that as we 
talk about this in the future with you, and we need to do that, 
is that we take that holistic approach to installation 
resilience, and we look beyond just weather and climate, but we 
look at cyber, we look at water, we look at energy to take that 
holistic approach to ensure that if we fix one, we don't leave 
ourselves vulnerable.
    Senator Schatz. Right. And the beauty of the electricity 
piece is that it has really encouraging implications forward. 
And so some of what is being done at the Joint Base Pearl 
Harbor-Hickam and other places across the country, you know, 
are not just science projects, but things we can use to save 
lives and money over time. So I am pleased to see progress in 
this area. I would like to be as supportive as I can of this. 
And also, I would just like to understand what the new policies 
are and so that I can lay eyes on them as we go along.
    Mr. McMahon. Senator, let me take that question for record 
and get with you and your staff offline and share with you some 
of that information.
    Senator Schatz. Thank you.
    Senator Boozman. Well, thank you all again for being here. 
We really do appreciate you and appreciate all of your efforts. 
I hope we can continue to work very closely together as we try 
and solve the various challenges that we face. And there has 
been a great record of that in the past and, again, in a very 
bipartisan manner on the committee.
    To our retirees, General Bingham, Admiral Smith, General 
Coglianese, thank you. And then, as importantly, thank you to 
your families. This definitely is a family affair, and we do 
appreciate your service and sacrifice through the years.

                     ADDITIONAL COMMITTEE QUESTIONS

    For members of the subcommittee, any questions for the 
record should be turned in to the subcommittee staff no later 
than Friday, April 19th.

                          SUBCOMMITTEE RECESS

    Senator Boozman. And with that, the hearing is adjourned.
    [Whereupon, at 4:25 p.m., Tuesday, April 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
